<html>
<title> - ACCESS DENIED: KEEPING ADVERSARIES AWAY FROM THE HOMELAND SECURITY SUPPLY CHAIN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  ACCESS DENIED: KEEPING ADVERSARIES AWAY FROM THE HOMELAND SECURITY 
                              SUPPLY CHAIN

=======================================================================

                               JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          COUNTERTERRORISM AND
                              INTELLIGENCE

                                AND THE

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2018

                               __________

                           Serial No. 115-71

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      
      
         Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-348 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9dec9d6f9dacccacdd1dcd5c997dad6d497">[email&#160;protected]</a> 


                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                    Steven S. Giaier, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Lou Barletta, Pennsylvania           Kathleen M. Rice, New York
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Will Hurd, Texas                     William R. Keating, Massachusetts
Mike Gallagher, Wisconsin            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
            Nicole Tisdale, Minority Staff Director/Counsel
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
                                     J. Luis Correa, California
John Ratcliffe, Texas                Kathleen M. Rice, New York
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Ron Estes, Kansas                        (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Diana Bergwin, Subcommittee Staff Director
      Erica D. Woods, Interim Subcommittee Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Ms. Soraya Correa, Chief Procurement Officer, Office of the Chief 
  Procurement Officer, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Joint Prepared Statement.......................................    12
Mr. John Zangardi, Chief Information Officer, Office of the Chief 
  Information Officer, U.S. Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................    12
Ms. Jeanette Manfra, Assistant Secretary, Office of Cybersecurity 
  and Communications, National Protection and Programs 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................    12

                                Panel II

Mr. Gregory C. Wilshusen, Director of Information Security 
  Issues, Government Accountability Office:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20

                                APPENDIX

Question From Chairman Scott Perry for the Department of Homeland 
  Security.......................................................    39
Questions From Honorable James R. Langevin for the Department of 
  Homeland Security..............................................    39
Questions From Honorable Ron Estes for Gregory C. Wilshusen......    48

 
  ACCESS DENIED: KEEPING ADVERSARIES AWAY FROM THE HOMELAND SECURITY 
                              SUPPLY CHAIN

                              ----------                              


                        Thursday, July 12, 2018

       U.S. House of Representatives,      
        Committee on Homeland Security,    
Subcommittee on Counterterrorism and Intelligence, 
                                                and
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:05 a.m., 
in room HVC-210, Capitol Visitor Center, Hon. Peter King 
[Chairman of the Subcommittee on Counterterrorism and 
Intelligence] presiding.
    Present: Representatives King, Perry, Hurd, Donovan, Rice, 
Correa, Barragan, and Keating.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittees on Counterterrorism and Intelligence and 
Oversight and Management Efficiency will come to order.
    The subcommittees are meeting today in a joint hearing to 
examine threats in the Department of Homeland Security's supply 
chain and assess tools and authorities for DHS to mitigate 
those threats. I now recognize myself for an opening statement.
    There is no question that nation-states and criminal actors 
are constantly trying to exploit U.S. Government and private-
sector systems to steal information or insert potentially 
harmful hardware or software. The recent cases involving 
Kaspersky, ZTE, and Huawei underscore the threats posed to the 
Federal supply chain and the urgency in developing stronger 
mechanisms to secure it.
    In March 2017, the Office of the Director of National 
Intelligence, ODNI, released a background paper on the supply 
chain risk management, stating: ``Even as the U.S. Government 
and private sector have implemented programs to mitigate and 
counter supply chain threats, the evolution of directed, 
sophisticated, and multifaceted threats threatens to outpace 
our countermeasures. Traditional remedies such as trade 
agreements, economic sanctions, and legal actions are 
reactionary in nature and cannot keep pace with the evolution 
of threats.''
    The Federal Government is behind the curve in establishing 
robust supply chain security measures. It is clear that 
additional tools, policies, resources, and legal authorities 
are urgently needed to address this challenge. I am pleased 
that the White House released a legislative proposal on Tuesday 
developed through the interagency process that was initiated in 
April.
    The proposal seeks to strengthen SCRM's efforts across the 
Government, enhance information sharing, and harden the Federal 
procurement process to identify and mitigate threats. 
Additionally, I want to highlight that DHS is making great 
strides to implement SCRM measures throughout the Department.
    Last year, DHS issued policy directives for high-value 
assets requiring that all DHS components develop and implement 
SCRM strategies for sensitive payments, educate and train staff 
and contractors about supply chain risks, and enforce good 
supply chain hygiene by establishing contractual requirements 
and audit mechanisms for suppliers.
    The purpose of today's hearing is to review current 
capabilities and authorities and assess whether additional 
authorities are needed to better protect the Department of 
Homeland Security's supply chain.
    The Department of Defense and the intelligence community 
have existing authorities to block certain procurement efforts 
if security risks are identified. Even now, more is being done 
to protect our sensitive supply chain. The recently-passed 
National Defense Authorization Act enhances DOD's authorities, 
and the Intelligence Authorization Act which is on the floor 
today further strengthens the intelligence community's SCRM 
toolkit.
    As a National security agency, it is vital that DHS also 
have robust supply chain risk management practices and tools to 
identify, mitigate, and remove potential threats to our systems 
and contracts. In addition to reviewing the OMB proposal, both 
subcommittees are working on specific legislation to provide 
DHS with similar SCRM authorities to DOD.
    At the end of the day, the ability of any agency to address 
supply chain risk survives on a robust intelligence framework. 
The foundation of any SCRM program is the ability to 
proactively identify entities seeking to exploit the DHS 
acquisition process, become trusted vendors, and then steal 
from or otherwise harm the Homeland Security enterprise.
    In order to fully understand DHS intelligence SCRM 
capabilities and specific threats to the supply chain, I expect 
that after an initial round of questions in the open session, 
we move to a closed session to better discuss those issues.
    I again want to thank the witnesses for being here and 
express appreciation for Chairman Perry and Ranking Member 
Correa for working with us on this joint hearing.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                             July 12, 2018
    There is no question that nation-states and criminal actors are 
constantly trying to exploit U.S. Government and private-sector systems 
to steal information or insert potentially harmful hardware or 
software. The recent cases involving Kaspersky, ZTE, and Huawei 
underscore the threats posed to the Federal supply chain and the 
urgency in developing stronger mechanisms to secure it.
    In March 2017, the Office of the Director of National Intelligence 
(ODNI) released a background paper on the supply chain risk management 
stating: ``Even as the U.S. Government and private sector have 
implemented programs to mitigate and counter supply chain threats, the 
evolution of directed, sophisticated, and multifaceted threats 
threatens to outpace our countermeasures. Traditional remedies such as 
trade agreements, economic sanctions, and legal actions are reactionary 
in nature and cannot keep pace with the evolution of threats.''
    The Federal Government is behind the curve in establishing robust 
supply chain security measures. It is clear that additional tools, 
policies, resources, and legal authorities are urgently needed to 
address this challenge.
    I am pleased that the White House released a legislative proposal 
on Tuesday developed through the interagency process initiated in 
April. The proposal seeks to strengthen SCRM efforts across the 
Government, enhance information sharing, and harden the Federal 
procurement process to identify and mitigate threats.
    Additionally, I want to highlight that DHS is making great strides 
to implement SCRM measures throughout the Department. Last year, DHS 
issued policy directives for high-value assets requiring that all DHS 
components develop and implement SCRM strategies for sensitive systems, 
educate and train staff and contractors about supply chain risks, and 
enforce good supply chain hygiene by establishing contractual 
requirements and audit mechanisms for suppliers.
    The purpose of today's hearing is to review current capabilities 
and authorities and assess whether additional authorities are needed to 
better protect the Department of Homeland Security's supply chain.
    The Department of Defense and the intelligence community have 
existing authorities to block certain procurement efforts if security 
risks are identified. Even now, more is being done to protect their 
sensitive supply chain. The recently-passed National Defense 
Authorization Act enhances DOD's authorities and the Intelligence 
Authorization Act, on the Floor today, further strengthens the 
intelligence communities SCRM toolkit. As a National security agency, 
it is vital that DHS also have robust supply chain risk management 
practices and tools to identify, mitigate, and remove potential threats 
to its systems and contracts.
    In addition to reviewing the OMB proposal, both subcommittees are 
working on specific legislation to provide DHS with similar SCRM 
authorities to DOD. At the end of the day, the ability of any agency to 
address supply chain risk survives on a robust intelligence framework.
    The foundation of any SCRM program is the ability to proactively 
identify entities seeking to exploit the DHS acquisition process, 
become trusted vendors, and then steal from or otherwise harm the 
homeland security enterprise.
    In order to fully understand current DHS intelligence SCRM 
capabilities and specific threats to the supply chain, I expect that 
after an initial round of questions in the open session we will move 
into a closed session to better discuss those issues.
    I again want to thank the witnesses for being here and express 
appreciation for Chairman Perry and Ranking Member Correa for working 
with us on this joint hearing.

    Mr. King. I am pleased to recognize the Ranking Member of 
the Subcommittee on Counterterrorism and Intelligence, the 
gentlelady from New York, Miss Rice, for her opening statement.
    Miss Rice. Thank you, Chairman King and Chairman Perry, for 
holding this important hearing, and thank you to the witnesses 
for coming to testify today.
    The Department of Homeland Security has the enormous 
responsibility of securing the Federal Government's vast supply 
chain, particularly information technology, from a wide variety 
of foreign threats. Today the most pressing threats come from 
Chinese and Russian IT companies that until recently were used 
widely throughout the United States and by several Federal 
agencies. For example, last year we learned that the Russian 
cybersecurity company Kaspersky Lab was operating compromised 
antivirus software on U.S. Government computers. Despite being 
a long-time Government vendor, the FBI had reason to believe 
the Kaspersky programs contained back doors that could be 
accessed by Russian intelligence. Thankfully, DHS acted to wipe 
the software from all Government systems.
    Additionally, Members of Congress have long been warned 
that the Chinese telecommunications companies Huawei and ZTE 
also pose risks to our National security. ZTE and Huawei are 
two of the world's largest telecommunication companies and were 
used widely in the United States. However, the companies have 
close ties to the Chinese Government and were believed to be 
possible vehicles for cyber threat and espionage.
    In 2016, we imposed stiff penalties on ZTE for violating 
U.S. sanctions by making hundreds of shipments of 
telecommunications equipment made with U.S. parts to Iran, 
Sudan, North Korea, Syria, and Cuba. After yet another breach 
in April, ZTE faced additional U.S. penalties, including a ban 
on U.S. suppliers selling equipment to ZTE. The following 
month, both ZTE and Huawei were also banned from being sold on 
U.S. military bases.
    These bans were not only warranted but, in my opinion, long 
overdue. These companies and their government clearly pose a 
threat to our National security and we had a responsibility to 
act, which makes the actions of President Trump all the more 
surprising. It appears President Trump has placed his own 
business interests above our National security. Not long after 
a soon-to-be Trump-branded resort in Indonesia received loans 
from the Chinese Government, the President tweeted a promise to 
save ZTE from the punishing penalties. Just yesterday, the 
Trump administration and the Chinese Government signed an 
agreement to end the ban on U.S. exports to ZTE.
    The President's lack of candor and leadership on this 
issue, coupled with the urgent threats facing our supply 
chains, calls for the Federal Government to develop a 
comprehensive strategy to protect our supply chains from 
foreign threats. During this hearing, I hope to learn more 
about what the Department of Homeland Security is doing to 
advance their counterintelligence programs, specifically with 
the proposed use of section 806 authority.
    I think it is also important that we know whether the White 
House is playing an active role in coordinating supply chain 
security across the Federal Government. But most importantly, 
this committee needs to know what additional resources and 
support are needed by supply chain risk management programs to 
carry out its mission effectively. As I understand, there are 
only two employees dedicated to the SCRM program, which seems 
completely inadequate, given the task ahead.
    It is time that we finally listen to the intelligence 
community and create a comprehensive strategy to counter the 
mounting threats facing our supply chains. I look forward to 
hearing from our witnesses today and I do hope this will be a 
constructive conversation. Thank you, Mr. Chairman.
    [The statement of Ranking Member Rice follows:]

               Statement of Ranking Member Kathleen Rice

                             July 12, 2018

    The Department of Homeland Security has the enormous 
responsibility of securing the Federal Government's vast supply 
chain--particularly information technology--from a wide variety 
of foreign threats. Today, the most pressing threats come from 
Chinese and Russian IT companies, that until recently were used 
widely throughout the United States and by several Federal 
agencies.
    For example, last year we learned that the Russian 
cybersecurity company Kaspersky Lab was operating compromised 
anti-virus software in U.S. Government computers. Despite being 
a long-time Government vendor, the FBI had reason to believe 
the Kasperksy programs contained back doors that could be 
accessed by Russian intelligence. Thankfully, DHS acted to wipe 
the software from all Government systems. Additionally, Members 
of Congress have long been warned that the Chinese 
telecommunications companies Huawei and ZTE also posed risks to 
our National security.
    ZTE and Huawei are two of the world's largest 
telecommunications companies and were used widely in the United 
States. However, the companies have close ties to the Chinese 
government and were believed to be possible vehicles for cyber 
theft and espionage.
    In 2016, we imposed stiff penalties on ZTE for violating 
U.S. sanctions by making hundreds of shipments of 
telecommunications equipment made with U.S. parts to Iran, 
Sudan, North Korea, Syria, and Cuba. After yet another breach 
in April, ZTE faced additional U.S. penalties, including a ban 
on U.S. suppliers selling equipment to ZTE. The following month 
both ZTE and Huawei were also banned from being sold on U.S. 
military bases. These bans were not only warranted but, in my 
opinion, long overdue. These companies and their Government 
clearly pose a threat to our National security and we had a 
responsibility to act.
    Unsurprisingly however, President Trump appears to have 
placed his own business interests above our National security. 
Not long after a soon-to-be Trump-branded resort in Indonesia 
received loans from the Chinese government, the President 
Tweeted a promise to save ZTE from the punishing penalties. 
Just yesterday, the Trump administration and the Chinese 
government signed an agreement to end the ban on U.S. exports 
to ZTE.
    The President's lack of candor and leadership on this 
issue, coupled with the urgent threats facing our supply 
chains, calls for the Federal Government to develop a 
comprehensive strategy to protect our supply chains from 
foreign threats.
    During this hearing, I hope to learn more about what the 
Department of Homeland Security is doing to advance their 
counterintelligence programs specifically with the proposed use 
of Section 806 authority. I also want to know whether the White 
House is playing an active role in coordinating supply chain 
security across the Federal Government.
    But most importantly, this committee needs to know what 
additional resources and supports are needed by the Supply 
Chain Risk Management program to carry out its mission 
effectively. As I understand, there are only two employees 
dedicated to the SCRM Program. That seems completely inadequate 
given the task ahead. It is time that we finally listen to the 
intelligence community and create a comprehensive strategy to 
counter the mounting threats facing our supply chains.

    Mr. King. Thank you, Miss Rice.
    I now recognize the Chairman of the Subcommittee on 
Oversight and Management Efficiency, Mr. Perry, for an opening 
statement.
    Mr. Perry. Thank you, Mr. Chairman.
    Good morning. I thank you, Chairman King, for holding this 
hearing today and including the Oversight and Management 
Efficiency Subcommittee in this very important timely 
discussion on the Department of Homeland Security's efforts to 
secure its supply chain.
    In today's interconnected world, the Federal Government is 
increasingly reliant on the procurement of products and 
services with supply chains that originate from outside our 
borders. DHS is no exception. Global supply chains are integral 
to the Department's ability to carry out the mission of 
securing the homeland. However, recent incidents involving 
Government contractors and foreign-based suppliers, like 
Kaspersky Lab, ZTE, and Huawei, have shed light on the security 
risks associated with the global nature of supply chains. 
Potential threats to international supply chains, ranging from 
interference by foreign adversaries to poor product 
manufacturing practices, present a unique and complex challenge 
for both DHS and National security.
    To assess and counter supply chain threats, organizations 
employ supply chain risk management strategies which leverage 
risk assessments to neutralize threats associated with the 
global and distributed nature of modern supply chains. Risk 
assessments are made by utilizing open- and closed-source 
research, to allow organizations to better understand their 
supply chain and identify the threats specific to it. To assist 
the Federal Government in this effort, the National Institute 
for Standards and Technology has released Government-wide best 
practices for agencies to use as a model for their own supply 
chain risk management strategies.
    Agencies like DHS rely on contracts for products and 
services to carry out their daily operations. As such, in the 
case of the Department, ensuring supply chain security is 
intrinsic to the mission of ensuring National security. 
Unfortunately, given the threat environment, I too am concerned 
that the Department does not currently possess the sufficient 
tools to effectively carry out supply chain risk management.
    Under the regulations governing Federal procurements, DHS 
maintains limited authority to terminate procurement contracts 
for unforeseen circumstances and to bar irresponsible entities 
from doing future business with the Federal Government for up 
to 3 years.
    Additionally, the Federal Information Security 
Modernization Act of 2014 granted the Department the authority 
to issue binding operational directives, which are compulsory 
orders for Federal agencies to take action to safeguard 
information in IT systems when a security vulnerability has 
been identified. Unfortunately, these authorities are generally 
viewed as reactive measures that open the Department up to 
costly liability and litigation and are not agile enough to 
address today's supply chain threats.
    DHS needs the proper authorities to be able to decisively 
act when a threat to its supply chain has been identified. That 
is why in the near term, I will be joining with my colleague 
Chairman King in introducing legislation to provide DHS with 
the tools to effectively carry out supply chain risk management 
in order to secure its supply chain. Modelled after statutory 
authority given to the Department of Defense in 2011, this 
legislation will empower the Secretary of DHS to block entities 
who pose a security risk from being a DHS vendor. This 
legislation will also encourage information sharing across the 
Department when a supply chain risk has been identified.
    Again, I thank our distinguished panel for testifying this 
morning and I look forward to learning more about supply chain 
risk management at the Department. It is my intention to use 
today's discussion to help further shape a legislative solution 
for securing DHS's supply chain.
    Thank you, Mr. Chairman. I yield the balance.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                             july 12, 2018
    Good morning. I would like to thank Chairman King for holding this 
hearing today and including the Oversight and Management Efficiency 
Subcommittee in this very important and timely discussion on the 
Department of Homeland Security's efforts to secure its supply chain.
    In today's interconnected world, the Federal Government is 
increasingly reliant on the procurement of products and services with 
supply chains that originate from outside our borders. DHS is no 
exception. Global supply chains are integral to the Department's 
ability to carry out the mission of securing the homeland.
    However, recent incidents involving Government contractors and 
foreign-based suppliers like Kaspersky Lab, ZTE, and Huawei have shed 
light on the security risks associated with the global nature of supply 
chains. Potential threats to international supply chains ranging from 
interference by foreign adversaries to poor product manufacturing 
practices present a unique and complex challenge for both DHS and 
National security.
    To assess and counter supply chain threats, organizations employ 
supply chain risk management strategies, which leverage risk 
assessments to neutralize threats associated with the global and 
distributed nature of modern supply chains. Risk assessments are made 
by utilizing open- and closed-source research to allow organizations to 
better understand their supply chain and identify the threats specific 
to it. To assist the Federal Government in this effort, the National 
Institute for Standards and Technology has released Government-wide 
best practices for agencies to use as a model for their own supply 
chain risk management strategies.
    Agencies like DHS rely on contracts for products and services to 
carry out their daily operations. As such, in the case of the 
Department, ensuring supply chain security is intrinsic to the mission 
of ensuring National security.
    Unfortunately, given the threat environment, I am concerned that 
the Department does not currently possess the sufficient tools to 
effectively carry out supply chain risk management. Under the 
regulations governing Federal procurements, DHS maintains limited 
authorities to terminate procurement contracts for unforeseen 
circumstances and to bar irresponsible entities from doing future 
business with the Federal Government for up to 3 years. Additionally, 
the Federal Information Security Modernization Act of 2014 granted the 
Department the authority to issue binding operational directives, which 
are compulsory orders for Federal agencies to take action to safeguard 
information and IT systems when a security vulnerability has been 
identified. Unfortunately, these authorities are generally viewed as 
reactive measures that open the Department up to costly liability and 
litigation and are not agile enough to address today's supply chain 
threats.
    DHS needs the proper authorities to be able to decisively act when 
a threat to its supply chain has been identified. That is why, in the 
near term, I will be joining with my colleague Chairman King in 
introducing legislation to provide DHS with the tools to effectively 
carry out supply chain risk management in order to secure its supply 
chain.
    Modeled after statutory authority given to the Department of 
Defense in 2011, this legislation will empower the Secretary of DHS to 
block entities who pose a security risk from being a DHS vendor. The 
legislation will also encourage information sharing across the 
Department when a supply chain risk has been identified.
    I want to thank our distinguished panel for testifying this morning 
and I look forward to learning more about supply chain risk management 
at the Department. It is my intention to use today's discussion to help 
further shape a legislative solution for securing DHS's supply chain. 
Thank you and I yield back the balance of my time.

    Mr. King. Thank you, Mr. Perry. I am pleased that our two 
subcommittees are working together to address this vital issue.
    I now recognize the Ranking Member of the subcommittee, Mr. 
Correa, for an opening statement.
    Mr. Correa of California. Thank you, Chairman Perry, 
Chairman King, and Vice Chairperson Rice, for today's hearing. 
This morning the two subcommittees will hear from witnesses on 
DHS's current authority on mitigating threats to our supply 
chain. We urgently need a National strategy for supply chain 
risk management.
    Foreign nation-states like Russia and China view 
information and communication technology as a strategic sector 
in which they have invested significant capital and exercise 
tremendous influence. IT products and services through the 
global supply chain are threats that continue to evolve every 
day. Bad actors continue to target U.S. Government contractors 
and other private-sector entities that do business with the 
Government and try to gain advantage and undermine our 
security.
    Over the past year, DHS has mitigated the risks and secured 
the Government supply chain. DHS launched a new supply chain 
risk management, or SCRM, program. While the goals of the 
program are commendable, its mission far exceeds its resources. 
As of this May, there are only two employees dedicated to the 
program. I hope to work with the Department and my colleagues 
across the aisle to provide this office with the proper 
resources and manpower it deserves.
    Last, I look forward to hearing from today's witnesses on 
how the DHS SCRM program fits into the Federal Government's 
overarching approach to supply chain security. Without a 
cybersecurity coordinator within the administration, I am also 
concerned about consolidation efforts underway within multiple 
Federal agencies to address the National security implications 
of supply chain vulnerability.
    The Federal Government supply chain is a target for our 
adversaries and we need to ensure that commercial off-the-shelf 
goods and services are not the subject of manipulation. It is 
imperative that we streamline these efforts to better protect 
against supply chain threats, and I hope to work with the 
administration to that end.
    With that, I yield.
    [The statement of Ranking Member Correa follows:]
               Statement of Ranking Member J. Luis Correa
                             July 12, 2018
    This morning the two subcommittees will hear from several 
distinguished witnesses on DHS's current authority related to 
mitigating threats to its supply chain. As previously mentioned by my 
colleagues in their opening statements, the United States needs a 
National strategy for supply chain risk management--and it needs it 
now.
    Foreign nation-states like Russia and China rely on information and 
communication technology as a ``strategic sector,'' in which the two 
countries' governments have invested significant capital and exercise 
substantial influence.
    In 2012, the House Permanent Select Committee on Intelligence found 
that the risks posed by China's largest telecommunications 
manufacturers, ZTE and Huawei, ``could undermine core U.S. National 
security interests.'' In 2017, after ``concern[s] about the ties 
between certain Kaspersky officials and Russian intelligence,'' DHS 
directed all Federal agencies to remove the Russian-based firm's 
products from their networks.
    The exploitation of IT products and services through the global 
supply chain is a threat that continues to evolve each day. Bad actors 
continue to target U.S. Government contractors and other private-sector 
entities that do business with the Government to try to gain advantage 
and pursue other state goals.
    Over the past year, DHS has taken several steps to mitigate the 
risk and secure the Federal Government's supply chain. Just recently, 
DHS launched a new Supply Chain Risk Management (SCRM), or ``SKRIM'' 
Program, within its National Programs and Protection Directorate. This 
new office was established to examine security concerns arising from 
the use of certain vendors and subcontractors.
    However, while the goals of the program are laudable, its mission 
far exceeds its resources. As of May, there were only 2 employees 
dedicated to the program.
    Considering that the risk is great, I hope to work with the 
Department and my colleagues across the aisle on providing this office 
with the proper resources and manpower that it deserves. Especially 
when we are considering expanding DHS's authority related to denying 
procurements based on National security concerns.
    Last, I look forward to hearing from today's witnesses on how the 
DHS SCRM Program fits into the Federal Government's overarching 
approach to supply chain security.
    Without a Cybersecurity Coordinator within the Trump 
administration, I am concerned about the White House's ability to 
consolidate the numerous efforts underway within multiple Federal 
agencies to address the National security implications of supply chain 
vulnerabilities.
    The Federal Government's supply chain is a target for our 
adversaries, and we need to ensure that commercial off-the-shelf goods 
and services are not subject to manipulation. Hence why it is 
imperative that we streamline these efforts to better protect against 
supply chain threats, and I hope to see the administration work towards 
this.

    Mr. King. I thank the gentleman. I thank Mr. Correa.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 12, 2018
    The threats to the United States from China and Russia are not new. 
For years, it has been reported that Chinese companies like ZTE and 
Huawei could be used to carry out cyber theft, spying, and espionage.
    Last year, Kaspersky Labs demonstrated the Russian government's 
capability to use anti-virus products to compromise Federal information 
and information systems, directly affecting U.S. National security.
    In a letter to Mississippi's Secretary of State in September, I 
spoke of ``an unacceptable amount of risk'' to our National security 
posed by these products, not only to the supply chain but also to the 
security of our elections.
    I am reiterating that concern today, especially since the threat 
from Russia and China to the United States has become more complicated 
and troubling in the wake of on-going actions by President Trump.
    After the blatant violation of U.S. sanctions in 2016 by ZTE and 
its subsequent breach this year, the Department of Defense initiated a 
ban on the sale of ZTE and Huawei products on military bases due to 
security concerns.
    Despite these concerns, in May, the President took to Twitter to 
commit to saving ZTE and Chinese jobs days after a Trump-branded resort 
received a substantial loan from the Chinese government to build 
property in Indonesia.
    This sent a clear message: the U.S. President will do business with 
you if you do business with him.
    These policies continue to erode U.S. institutions and interests 
abroad, downplaying the seriousness of U.S. sanctions and National 
security to the global community.
    The Federal Government supply chain is a target for our 
adversaries.
    And while the threats from our adversaries are great, so is the 
opportunity to identify vulnerabilities and mitigate the risks.
    Today, we are considering expanding DHS's authority to address 
supply chain risk by excluding contractors based on National security 
concerns.
    Such authority would provide DHS with additional opportunities to 
mitigate supply chain risk during the acquisition phase.
    The Defense Department currently has authority, known as Section 
806 authority, to exclude contractors from information technology 
procurements if evidence of National security risk is identified and 
mitigation measures are not available. It has only been used this 
authority once.
    Although the legislation is a good first step, we should consider 
whether refinements are necessary based on DOD's lessons learned.
    Providing the authority won't address the fact that the Trump 
administration lacks a coherent, Government-wide strategy to adequately 
address the challenges we continue to face from Russia and China.
    National Security experts, business associations and Members of 
this committee have communicated their concerns to the administration, 
about the need to secure Federal supply chains.

    Mr. King. I now would like to ask unanimous consent that 
the Chairman of the Emergency Preparedness Subcommittee, Mr. 
Donovan, be able to sit on the dais and participate in today's 
hearing. Without objection, so ordered.
    We are grateful to have a very distinguished panel here 
today to testify before us. And let me remind the witnesses 
that their entire written statements will appear in the record.
    Our first witness, Ms. Soraya Correa--did I get that right?
    OK good. Serves as the chief procurement officer for the 
Department of Homeland Security. Ms. Correa provides 
leadership, policy, oversight, support, and professional work 
force development for the DHS contracting work force of 
approximately 1,500 individuals. As the senior procurement 
executive, she also oversees a centralized certification and 
training program for the DHS acquisition work force and also 
assists the chief acquisition officer in managing major 
acquisition programs.
    Prior to being appointed to this position in January 2015, 
Ms. Correa served as the associate director of the U.S. 
Citizenship and Immigration Service Enterprise Services 
Directorate.
    The Chair now recognizes Ms. Correa for her opening 
statement. Thank you.

 STATEMENT OF SORAYA CORREA, CHIEF PROCUREMENT OFFICER, OFFICE 
 OF THE CHIEF PROCUREMENT OFFICER, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Correa. Thank you.
    Chairman King, Chairman Perry, Ranking Member Correa, and 
Ranking Member Rice and Members of the subcommittees, thank you 
for this opportunity to discuss ways the Department of Homeland 
Security can enhance its ability to effectively manage supply 
chain risk in the procurement process.
    As the chief procurement officer and senior procurement 
executive for the Department, I am responsible for the DHS 
procurement line of business. My DHS colleagues will speak to 
supply chain risk and the Department's response to this risk. I 
am here to discuss the additional authority needed to ensure 
the procurement process can effectively and efficiently address 
identified threats and vulnerabilities in the supply chain 
while protecting intelligence information.
    The DHS National security and cybersecurity mission 
warrants additional authority in order to protect its systems 
and networks. From a procurement perspective, it is essential 
that we promote business processes and use authorities that 
enable us to be more consistent in our training, 
implementation, and management of those authorities across the 
Government.
    If we do, we can improve understanding and ease 
implementation for industry, especially for new companies and 
small businesses. Today, Federal agencies are finding 
increasing similarities in the products and services that we 
acquire, in the ways we work with the various industries, and 
in National security considerations that impact our mission. 
Therefore, providing certain authorities for use across the 
Federal Government to ensure a fair and effective process for 
addressing supply chain risks throughout the acquisition life 
cycle is essential.
    I would like to briefly describe how the rules governing 
the procurement process impact DHS when the Department needs to 
take action on intelligence information. Currently, DHS 
contracting officers, or COs, regardless of their security 
clearance level, are unable to receive specific intelligence 
information. Instead, COs are advised broadly that there is a 
risk and provided the potential mitigation strategies to offset 
that risk, or they are advised if there is a risk that cannot 
be mitigated. When a risk cannot be mitigated, there are 
sufficient authorities in a Classified procurement to take 
immediate action. However, in an unclassified procurement, 
where the vast majority of DHS procurements are actually 
conducted and administered, the CO's actions are restricted, 
because the process is designed to balance the equities of the 
contracting parties, ensuring due process for contractors and 
full disclosure of the Government's reasons for pursuing 
contractual remedies in the event of a performance or integrity 
failure.
    The Federal acquisition regulation and underpinning 
statutes were designed around the procurement of commodities 
and services that were neither anticipated to be vulnerable to 
nor the target of the sophisticated foreign intelligence 
activities witnessed in recent years, especially those 
associated with the globalized information and communications 
technology supply chain.
    In fact, during the preaward process or during the preaward 
phase of the competitive procurement process, which includes 
the evaluation of proposals submitted by competing vendors, a 
CO cannot take action on intelligence information if it would 
preclude the further participation of an interested vendor. The 
competitive process is designed to ensure fair and equitable 
treatment of participating vendors, thereby requiring 
sufficient transparency in the Government's decision to exclude 
a vendor.
    Ideally, we need to anticipate risks in our planning phase 
and find mitigation strategies before we begin the procurement 
process. Unfortunately, sometimes risks are not identified 
until a particular vendor or their proposed solution is 
evaluated. While we will always turn to our DHS colleagues to 
mitigate such risks, additional authority is needed for those 
instances when the risk cannot be mitigated and the vendor or 
particular product or service must be excluded.
    There are existing authorities to manage risk on awarded 
contracts. These include temporary stop work orders, 
termination of contracts, and suspension and debarment actions, 
as appropriate. However, these remedies were not designed to 
address a security threat based on intelligence information.
    I would like to make an important point before I close. As 
the Department's chief procurement officer and senior 
procurement executive, I take my obligations to maintain the 
integrity of the procurement process seriously. This is why I 
support strong safeguards against the abuse of any authorities 
granted to enhance our ability to protect the supply chain and 
protect intelligence information used in the procurement 
process. Therefore, I support ensuring accountability at a high 
level within the Department for use of such authority as well 
as appropriate fact-finding, resulting in well-documented 
determinations.
    Thank you again for your interest in this very important 
matter and I look forward to any questions that you may have.
    [The joint prepared statement of Ms. Correa, Mr. Zangardi, 
and Ms. Manfra follow:]
Joint Prepared Statement of Soraya Correa, John Zangardi, and Jeanette 
                                 Manfra
                             July 12, 2018
                              introduction
    Chairman King, Chairman Perry, Ranking Member Correa, Ranking 
Member Rice, and Members of the subcommittees, thank you for this 
opportunity to discuss with you ways to improve the Department of 
Homeland Security's (DHS) ability to effectively manage supply chain 
risk. The Secretary of DHS has two primary sets of supply chain risk 
management responsibilities related to information and communications 
technology (ICT). In one set, the Secretary is responsible for 
procurement and supply chain risk management within DHS's ICT 
environment. These responsibilities are carried out by the DHS chief 
procurement officer (CPO) and DHS chief information officer (CIO). In 
carrying out the other set of responsibilities, the Secretary of DHS, 
in consultation with the Office of Management and Budget (OMB), 
administers the implementation of Government-wide information security 
policies and practices. These responsibilities are carried out by the 
National Protection and Programs Directorate (NPPD).
    ICT is critical to an agency's ability to carry out its mission 
efficiently and effectively. Supply chain risks could contribute to the 
loss of confidentiality, integrity, or availability of information or 
information systems and result in adverse impacts to organizational 
operations (including mission, functions, image, or reputation), 
organizational assets, individuals, other organizations, and the 
Nation. Cyber Supply Chain Risk Management (C-SCRM) is the process of 
identifying, assessing, and mitigating the risks associated with the 
global and distributed nature of ICT product and service supply chains. 
C-SCRM spans the entire life cycle of ICT, including design, 
development, acquisition, distribution, deployment, maintenance, and 
product retirement.
                       current supply chain risks
    The ICT supply chain is widely viewed as a source of significant 
risk to ICT products, systems, and services. Vulnerabilities in ICT can 
be exploited intentionally or unintentionally through a variety of 
means, including deliberate mislabeling and counterfeits, unauthorized 
production, tampering, theft, and insertion of malicious software or 
hardware. If these risks are not detected and mitigated, the impact to 
the ICT could be a fundamental degradation of its confidentiality, 
integrity, or availability and potentially adverse impacts to essential 
Government or critical infrastructure systems.
    Increasingly sophisticated adversaries seek to steal, compromise, 
alter, or destroy sensitive information on systems and networks, and 
risks associated with ICT may be used to facilitate these activities. 
The Office of the Director of National Intelligence (ODNI) 
acknowledges, ``The U.S. is under systemic assault by foreign 
intelligence entities who target the equipment, systems, and 
information used every day by government, business, and individual 
citizens.''\1\ The globalization of our supply chain can result in 
component parts, services, and manufacturing from sources distributed 
around the world. ODNI further states, ``Our most capable adversaries 
can access this supply chain at multiple points, establishing advanced, 
persistent, and multifaceted subversion. Our adversaries are also able 
to use this complexity to obfuscate their efforts to penetrate 
sensitive research and development programs, steal intellectual 
property and personally identifiable information, insert malware into 
critical components, and mask foreign ownership, control, and/or 
influence (FOCI) of key providers of components and services.''
---------------------------------------------------------------------------
    \1\ https://www.dni.gov/files/NCSC/documents/products/20170317-
NCSC_SCRM-Background.pdf.
---------------------------------------------------------------------------
              managing information as a strategic resource
    Current law governing information security of Federal information 
resources requires agencies to implement an agency-wide information 
security program that ensures that information security is addressed 
throughout the life cycle of each agency information system (44 U.S.C. 
3554(b)). On July 27, 2016, OMB released an update to Circular A-130, 
Managing Information as a Strategic Resource, the Federal Government's 
governing document for management of Federal information resources. 
Among other things, the revisions require agencies to establish a 
comprehensive approach to improve the acquisition and management of 
their information resources. This includes requirements for agencies to 
implement and oversee the implementation of supply chain risk 
management principles to protect against the insertion of counterfeits, 
unauthorized production, tampering, theft, and insertion of malicious 
software throughout the system development life cycle. Moreover, 
appropriate supply chain risk management plans to ensure the integrity, 
security, resilience, and quality of information systems are described 
in the National Institute of Standards and Technology (NIST) Special 
Publication 800-161, Supply Chain Risk Management Practices for Federal 
Information Systems and Organizations.
            the current rules for unclassified procurements
    C-SCRM is no longer an emerging threat, it is pervasive. However, 
the rules under which procurements are conducted have not kept pace 
with the evolution of this threat. The Federal Acquisition Regulation 
is designed to balance the equities of the contracting parties, 
ensuring due process for contractors and full disclosure of the 
Government's reasons for pursuing contractual remedies in the event of 
performance or integrity failure. These rules, however, were designed 
around the procurement of commodities and services that were not 
anticipated to be vulnerable to, nor the target of, the sophisticated 
foreign intelligence activities witnessed in recent years, especially 
those associated with a globalized ICT supply chain. For instance, the 
current procurement rules and their underpinning statutes did not 
imagine the need to use and protect intelligence information in 
unclassified procurements. While there are tools available to pursue 
correction of contractor performance issues or address integrity 
failures, they do not provide the flexibility to react swiftly to or 
protect intelligence information when exclusion of a source is the only 
way to mitigate supply chain risk. In fact, some currently available 
procurement tools that address performance issues, such as Government-
wide exclusion from doing business with any agency for a period of 
time, are too harsh, unless an agency investigation deems the 
contractor to be at fault for the performance issue. New rules are 
needed to combat the threat to our Nation's Federal information 
technology networks when intelligence information identifies risks that 
cannot be mitigated.
             using and protecting intelligence information
    Gaps exist in the DHS's authority to use intelligence information 
to support its procurement decisions when a significant supply chain 
risk cannot be mitigated. Mitigation, which is an action initiated by 
the Government to preclude a supply chain risk from causing a security 
concern, is the preferred and least disruptive method of addressing 
supply chain risk. However, in those exceptional cases where mitigation 
is not possible, DHS does not have the capability to react swiftly 
while appropriately restricting disclosure of intelligence and other 
National security sensitive information.
            dhs cyber supply chain risk management (c-scrm)
    In order to appropriately manage supply chain risks, stakeholders 
need increased visibility into, and understanding of, how the products 
and services they buy are developed, integrated, and deployed, as well 
as the processes, procedures, and practices used by ICT manufacturers 
and purveyors to assure the integrity, security, resilience, and 
quality of those products and services. The DHS Office of the Chief 
Information Officer (OCIO) has initiated work focused on establishing a 
C-SCRM effort executed Department-wide.
    The effort will include a governance structure that will update 
existing policy and procedures for C-SCRM. Documentation will be 
developed that will align with current policies while providing 
programmatic subject-matter expertise to DHS stakeholders and risk 
owners. Integral to the success of these efforts will be the functions 
and capabilities to conduct vulnerability and threat identification and 
analysis. To accomplish this, a process will be established to produce 
timely supply chain risk assessments of companies, products, and 
services based on an analysis of publicly and commercially available 
information about the company and product, or service being purchased 
and information shared through liaisons with the U.S. intelligence 
community (IC) threat assessment centers and DHS Office of Intelligence 
and Analysis (I&A), as appropriate.
    Working closely with NPPD and the DHS CPO, the initiative will 
develop education and training to ensure the effective use of the new 
authority. Guidance will also be provided to assist buyers in 
determining criticality, priority, and risk tolerance for the product 
or service to be purchased as well as assisting buyers and sellers with 
determining mitigation actions where supply chain risks have been 
identified.
    The DHS CIO knows first-hand that all tiers of the supply chain are 
targeted by increasingly sophisticated and well-funded adversaries 
seeking to steal, compromise, alter, or destroy information and is 
committed to establishing a robust enterprise approach to better 
managing the risk and vulnerabilities associated with ICT components. 
Although DHS is investing in C-SCRM with the goal to broaden and 
further strengthen our approach, additional authority is needed to 
ensure that risk is assessed and mitigated in a timely manner, and that 
disclosure of intelligence sources and other information is restricted.
      government-wide cyber supply chain risk management (c-scrm)
    The administration has been working to establish a strategic 
statutory framework to protect our Federal supply chain by conducting 
supply chain risk assessments, creating mechanisms for sharing supply 
chain information, and establishing exclusion authorities--both within 
agencies and in a centralized manner--to be utilized when justified. 
Earlier this week, the administration shared its proposed legislation 
with Congress, the ``Federal Information Technology Supply Chain Risk 
Management Improvement Act of 2018.'' We look forward to supporting the 
administration's work with Congress on the bill and strengthening our 
ability to help agencies execute Departmental missions in an 
environment of changing vulnerabilities and threats.
    NPPD carries out the DHS Secretary's responsibilities to administer 
the implementation of Government-wide information security policies and 
practices (44 U.S.C 3553(b)). These statutory responsibilities include 
monitoring agency implementation; convening senior agency officials; 
coordinating Government-wide efforts; providing operational and 
technical assistance; providing, as appropriate, intelligence and other 
information about cyber threats, vulnerabilities, and incidents to 
agencies; and developing and overseeing implementation of binding 
operational directives, among other actions. DHS leverages the full 
range of authorities to address supply chain risks across the Federal 
Government.
    DHS is working with the Department of Defense (DOD), the 
intelligence community, and other agencies to address key supply chain 
risks. In January 2018, NPPD established a C-SCRM initiative to 
centralize DHS's efforts to address risks to the ICT supply chains of 
Federal agencies, critical infrastructure owners and operators, and 
State, local, Tribal, and territorial governments. The mission of the 
C-SCRM initiative is to identify, assess, prevent, and mitigate risks 
associated with ICT product and service supply chains throughout the 
life cycle. Initially this initiative will focus on identifying and 
addressing supply chain risks related to the Federal Government's high-
value assets (HVAs), or those assets, Federal information systems, 
information, and data for which unauthorized access, use, disclosure, 
disruption, modification, or destruction could cause a significant 
impact to U.S. National security interests, foreign relations, the 
economy, or to the public confidence, civil liberties, or public health 
and safety of the American people. Additionally, DHS, in partnership 
with the General Services Administration, is working to bridge the gap 
between the procurement and ICT professional by providing acquisition 
professionals with awareness, training, and educational content to be 
available through the Federal Acquisition Institute.
    Since 2017, NPPD now requires Continuous Diagnostics and Mitigation 
(CDM) vendors to complete a SCRM questionnaire as part of their 
application to place a product on the CDM-approved products list. The 
questionnaire provides information to agencies about how the vendor 
identifies, assesses, and mitigates supply chain risks in order to 
facilitate better-informed decision making. The information is intended 
to provide visibility into, and improve the buyer's understanding of, 
how the products are developed, integrated, and deployed; as well as 
the processes, procedures, and practices used to assure the integrity, 
security, resilience, and quality of those products.
          intelligence support and countering illicit activity
    Despite the gaps in DHS's ability to use intelligence information 
to support its procurement actions, DHS has a variety of efforts 
currently underway within our existing authorities to help address 
these risks. One such effort is the strengthening of our 
counterintelligence capabilities. These capabilities include resources 
within DHS I&A as well as strengthening partnerships across other key 
components of the U.S. IC. Additionally, DHS components, including the 
U.S. Secret Service, U.S. Customs and Border Protection, and U.S. 
Immigration and Customs Enforcement, play a critical role in 
identifying and disrupting illicit activity impacting supply chain 
risk. In collaboration with the Federal Bureau of Investigation, and 
the Departments of State, Treasury, Commerce, and Defense, we are 
actively leveraging our individual and collective authorities to 
counter malicious actors and mitigate supply chain risks.
                               conclusion
    As DHS looks at the current threat landscape and the risk posed by 
increasingly sophisticated adversaries, we appreciate the committee's 
interest in supply chain risk management and look forward to working 
with the Members and your staff on these issues. Thank you for the 
opportunity to testify before the subcommittees. We are happy to answer 
any questions you may have.

    Mr. King. Thank you very much, Ms. Correa. I appreciate 
that.
    Our second witness, Dr. John Zangardi, is the chief 
information officer for DHS. Previously, Dr. Zangardi served as 
the DOD principal deputy chief information officer and later 
the acting chief information officer. Dr. Zangardi's background 
includes acquisition, policy, legislative affairs, resourcing, 
and operations. He is a retired Naval flight officer and served 
in a variety of command and staff assignments.
    The Chair now recognizes Dr. Zangardi. Thank you for being 
here today.

 STATEMENT OF JOHN ZANGARDI, CHIEF INFORMATION OFFICER, OFFICE 
 OF THE CHIEF INFORMATION OFFICER, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Zangardi. Chairman King, Chairman Perry, Ranking Member 
Correa, Ranking Member Rice, and Members of the subcommittees, 
thank you for this opportunity to discuss ways to improve the 
Department of Homeland Security's ability to effectively manage 
supply chain risk.
    The Department's Secretary has two primary sets of supply 
chain risk management responsibilities related to information 
and communications technology. In one set, the Secretary is 
responsible for procurement and supply chain risk management 
within DHS's information and communications environment. These 
responsibilities are carried out by DHS's chief procurement 
officer and the chief information officer.
    In carrying out the other set of responsibilities, the 
Secretary of DHS, in consultation with the Office of Management 
and Budget, administers the implementation of Government-wide 
information security policies and practices. These 
responsibilities are carried out by the National Protection and 
Programs Directorate, or NPPD. My focus today will be on the 
supply chain risk management activities within DHS's 
information and communications technology environment.
    Gaps exist in the Department's authority to use 
intelligence to support its procurement decisions when a 
significant supply chain risk cannot be mitigated. Mitigation 
is the preferred and least disruptive method of addressing 
supply chain risk. However, in those exceptional cases where 
mitigation is not possible, the Department needs the capability 
to react swiftly while appropriately restricting a disclosure 
of other National security-sensitive information.
    The administration has been working to establish a 
strategic statutory framework to protect our Federal supply 
chain by conducting supply chain risk assessments, creating 
mechanisms for sharing supply chain information, and 
establishing exclusion authorities, both within agencies and in 
a centralized manner, to be utilized when justified. We look 
forward to supporting the administration's work with Congress 
on the bill and strengthening our ability to execute mission in 
an environment of changing vulnerabilities and threats.
    DHS needs flexibility while protecting the integrity of the 
procurement process. DHS will ensure important safeguards, such 
as requiring factual findings, written determinations, and 
concurrences by specified senior DHS officials are in place 
when the authority as proposed by the administration is used. 
We do not see using this authority to drive sole-source 
procurements. Competition, particularly in the IT space, is 
critical to ensure that DHS gets the best solution at the right 
cost.
    DHS procedures will facilitate the timely assessment and 
mitigation of risk and preclude compromising DHS systems. It is 
key to ensure we have a strong process surrounding supply chain 
risk management. A strong supply chain risk management process 
needs to ensure that vendors are queried on supply chain risk 
process, there is awareness of the systems on the network and a 
rapid response to intelligence tippers, and there is a close 
working relationship with the component CIOs and CISOs, the 
chief procurement officer, the acquisition community, 
intelligence, and NPPD.
    As the IT technical authority for DHS, my chief information 
security officer, or CISO, has initiated work to directly 
support and execute technical assessments, providing subject-
matter expertise, and be the integration point for all 
enterprise supply chain management efforts.
    In addition, this team will develop program documentation 
that will align with current policies and procedures while 
providing programmatic subject-matter expertise to DHS 
stakeholders and risk owners.
    With the support of the DHS components and offices, my team 
will continue to focus on governance by enhancing policy, 
procedures, and compliance monitoring capability of SCRM 
activities, services, by providing supply chain risk management 
services such as informations and communications technology 
assessments and intelligence analysis reporting and operations, 
which includes the execution and implementation of supply chain 
risk management recommendations and selected IT acquisitions.
    DHS recognizes the importance of establishing an enterprise 
approach to managing supply chain risk associated with 
information and communications technology. The supply chain for 
information and communications technology is complex. We have 
our work cut out for us. Working closely with our partners, we 
will find the best and most realistic approach for 
strengthening our supply chain.
    The Department appreciates the support of this committee on 
these important matters. We will continue to work with Congress 
to address existing gaps in authority where resources are 
required to effectively manage supply chain risk within DHS.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    Mr. King. Thank you very much, Dr. Zangardi.
    Our third witness, Ms. Jeanette Manfra, serves as the 
assistant secretary of the Office of Cybersecurity and 
Communications at the National Protection and Programs 
Directorate within DHS. Ms. Manfra leads the Department's 
mission of strengthening the security and resilience of the 
Nation's critical infrastructure. Prior to this position, she 
served as the acting deputy under secretary for cybersecurity 
and the director for strategy, policy, and plans for the NPPD. 
Ms. Manfra served in the U.S. Army as a communications 
specialist and a military intelligence officer. I now recognize 
Ms. Manfra for an opening statement. Thank you.

 STATEMENT OF JEANETTE MANFRA, ASSISTANT SECRETARY, OFFICE OF 
   CYBERSECURITY AND COMMUNICATIONS, NATIONAL PROTECTION AND 
   PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Manfra. Chairman King, Chairman Perry, Ranking Member 
Correa, Ranking Member Rice, Members of the subcommittees, 
thank you for today's opportunity to discuss the Department's 
on-going efforts to assess and mitigate supply chain risk.
    The information and communications technology supply chain 
is a source of significant risk. The globalization of our 
supply chain results in component parts, services, and 
manufacturing from sources distributed around the world. 
Vulnerabilities in technology can be created intentionally or 
unintentionally through a variety of means, including 
deliberate mislabeling and counterfeits, unauthorized 
production, tampering, theft and insertion of malicious 
software or hardware. If these risks are not detected and 
mitigated, the result is adverse impacts to essential 
Government or critical infrastructure systems.
    The Office of the Director of National Intelligence 
acknowledges that the United States is under systemic assault 
by foreign intelligence entities, who target the equipment, 
systems, and information used every day by Government, 
business, and individual citizens. Our adversaries are able to 
use the supply chain's complexity to obfuscate their efforts to 
penetrate sensitive research and development programs, steal 
intellectual property and personally identifiable information, 
insert malware into critical components and mask foreign 
ownership, control, and/or influence of key providers of 
components and services.
    Cyber supply chain risk management requires addressing 
product security throughout its life cycle, including design, 
development, acquisition, distribution, deployment, 
maintenance, and product retirement. Current law governing 
information security for Federal information resources requires 
agencies to implement an agency-wide information security 
program that ensures that information security, including 
supply chain security, is addressed throughout the life cycle 
of each agency information system.
    At the National Protection and Programs Directorate, or 
NPPD, we carry out the Secretary's responsibilities to 
administer the implementation of Government-wide information 
security policies and practices and to coordinate the overall 
Federal effort to enhance the security and resilience of our 
Nation's critical infrastructure. These statutory 
responsibilities for Federal agencies include monitoring 
implementation, convening senior officials, coordinating 
Government-wide efforts, providing operational and technical 
assistance, providing, as appropriate, intelligence and other 
information about cyber threats, vulnerabilities, and 
incidents, and developing and overseeing implementation of 
binding operational directives, among other actions. We 
leverage the full range of these authorities to address supply 
chain risks across the Federal Government.
    In January 2018, we at NPPD established a cyber supply 
chain risk management program to facilitate National efforts to 
address risks to the information and communications technology 
supply chains of Federal agencies, critical infrastructure 
owners and operators, and State, local, Tribal, and territorial 
governments. We are working with DOD, the intelligence 
community, and other agencies in these efforts.
    Initially, this program is focusing on identifying and 
addressing supply chain risks related to the Federal 
Government's high-value assets. Additionally, in partnership 
with the General Services Administration, we are working to 
bridge the gap between procurement and information technology 
professionals by providing awareness, training, and educational 
content through the Federal Acquisition Institute. Through the 
continuous diagnostics and mitigation program, NPPD procures 
cybersecurity tools to deploy inside Federal agency networks.
    Since 2017, NPPD has required CDM vendors to complete a 
supply chain risk management questionnaire as part of the 
product approval process. The questionnaire provides 
information to agencies about how the vendor identifies, 
assesses, and mitigates supply chain risks in order to 
facilitate better-informed decision making. The information is 
intended to improve the buyer's understanding of how the 
products are developed, integrated, and deployed as well as the 
processes, procedures, and practices used to assure the 
integrity, security, resilience, and quality of those products.
    Before closing, I would note that this administration is 
working to establish a strategic framework to protect our 
Federal supply chain by conducting supply chain risk 
assessments, creating mechanisms for sharing supply chain risk 
and mitigation information, and establishing exclusion 
authorities, both within agencies and in a centralized manner, 
to be utilized when justified.
    As the Department works to address the risk posed by 
increasingly sophisticated adversaries, we appreciate the 
committee's interest in this topic and the work that you have 
done and look forward to working with Members and your staff on 
these issues.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Mr. King. Thank you, Ms. Manfra, I appreciate that.
    Our fourth witness is Mr. Gregory Wilshusen, the director 
of information security issues at the U.S. Government 
Accountability Office.
    Mr. Wilshusen leads information security-related studies 
and audits of the Federal Government. He has over 30 years of 
auditing, financial management, and information system 
experience.
    The Chair now recognizes Mr. Wilshusen for his opening 
statement. Thank you.

  STATEMENT OF GREGORY C. WILSHUSEN, DIRECTOR OF INFORMATION 
       SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Thank you. Chairman King, Chairman Perry, 
Ranking Members Rice and Correa, and Members of the 
subcommittee, thank you for the opportunity to testify at 
today's hearing on the Homeland Security supply chain.
    Information technology systems are essential to the 
operations of the Federal Government. These systems are created 
and delivered through a complex global supply chain that 
involves a multitude of organizations, individuals, activities, 
and resources.
    My testimony today provides an overview of the information 
security risks associated with the supply chains used by 
Federal agencies to procure IT systems. As requested, I will 
also discuss our 2012 assessment of the extent to which 4 
National security-related agencies, the Departments of Defense, 
Justice, Energy, and Homeland Security, had addressed these 
risks. Before I do, if I may, I would like to recognize two 
members of my team, Jeff Knott and Rosanna Guerrero, for their 
efforts in developing my statement. Thank you.
    In several reports issued since 2012, we have pointed out 
that the reliance on complex global IT supply chains introduces 
multiple risks to Federal information and communication 
systems. This includes the risk that these systems are being 
manipulated or damaged by leading foreign cyber threat nations, 
such as Russia, China, Iran, and North Korea. Threats and 
vulnerabilities created by these cyber threat nations, vendors, 
or suppliers closely linked to cyber threat nations and other 
malicious actors can be sophisticated and difficult to detect 
and, thus, pose a significant risk to organizations and Federal 
agencies.
    As we reported in March 2012, supply chain threats are 
present at various phases throughout a system's development 
life cycle. These threats include insertion of harmful or 
malicious software and hardware, installation of counterfeit 
items, disruption in the production or distribution of 
essential products and services, reliance on unqualified or 
malicious service providers, and installation of software and 
hardware containing unintentional vulnerabilities.
    These threats can be exercised by exploiting 
vulnerabilities that can exist at multiple points in the supply 
chain. Examples of these vulnerabilities include weaknesses in 
agency acquisition practices, such as acquiring products or 
parts from sources other than the original manufacturer or 
authorized reseller, incomplete information on IT suppliers, 
and installing hardware and software without sufficiently 
inspecting or testing them.
    These threats and vulnerabilities can potentially lead to a 
range of harmful effects, including allowing adversaries to 
take control of systems, extract or manipulate data, or 
decrease the availability of resources needed to develop or 
operate systems.
    In March 2012, we reported that the Departments of Defense, 
Justice, Energy, and Homeland Security varied in the extent to 
which they had addressed IT supply chain risks. Of the 4 
agencies, Defense had made the most progress and had 
implemented several risk management efforts. Conversely, the 
other 3 agencies had made limited progress addressing supply 
chain risk for their information systems.
    We made 8 recommendations to Justice, Energy, and DHS to 
develop and document policies, procedures, and monitoring 
capabilities that address IT supply chain risk. The agencies 
subsequently implemented 7 recommendations and partially 
implemented the eighth. These actions better positioned the 
agencies to monitor and mitigate their supply chain risks.
    In summary, the global IT supply chain introduces a myriad 
of security risks to Federal information systems that, if 
realized, could jeopardize the confidentiality, integrity, and 
availability of the systems and the information they contain. 
Thus, the potential exists for serious adverse impacts on an 
agency's operations, assets, and employees. These factors 
highlight the importance of Federal agencies appropriately 
assessing, managing, and monitoring IT supply chain risk as 
part of their agency-wide information security programs.
    Chairman King, Chairman Perry, Ranking Members Rice and 
Correa, and other Members of the subcommittees, this concludes 
my oral statement. I will be happy to answer your questions.
    [The prepared statement of Mr. Wilshusen follows:]
                   Statement of Gregory C. Wilshusen
                             July 12, 2018
    Chairmen King and Perry, Ranking Members Rice and Correa, and 
Members of the subcommittees: Thank you for the opportunity to testify 
at today's hearing on keeping adversaries away from the homeland 
security supply chain. As you know, Federal agencies and the owners and 
operators of our Nation's critical infrastructure rely extensively on 
information technology (IT) and IT services to carry out their 
operations. Securing this technology, its supply chain, and the 
information it contains is essential to protecting National and 
economic security.
    Since 1997, we have identified Federal information security as a 
Government-wide high-risk area. In 2003, we expanded this high-risk 
area to include protecting systems supporting our Nation's critical 
infrastructure.\1\
---------------------------------------------------------------------------
    \1\ See, most recently, GAO, High-Risk Series: Progress on Many 
High-Risk Areas, While Substantial Efforts Needed on Others, GAO-17-317 
(Washington, DC: Feb. 15, 2017).
---------------------------------------------------------------------------
    My statement provides an overview of the information security risks 
associated with the supply chains used by Federal agencies to procure 
IT equipment, software, or services.\2\ The statement also discusses 
our 2012 assessment of the extent to which 4 National security-related 
agencies--the Departments of Defense, Justice, Energy, and Homeland 
Security (DHS)--had addressed these risks.\3\
---------------------------------------------------------------------------
    \2\ The National Institute of Standards and Technology (NIST) has 
defined the term ``supply chain'' as a set of organizations, people, 
activities, information, and resources that create and move a product 
or service from suppliers to an organization's customers. NIST defines 
``information technology'' as any equipment or interconnected system or 
subsystem of equipment that is used in the automatic acquisition, 
storage, manipulation, management, movement, control, display, 
switching, interchange, transmission, or reception of data or 
information. This includes, among other things, computers, software, 
firmware, and services (including support services).
    \3\ GAO, IT Supply Chain: National Security-Related Agencies Need 
to Better Address Risks, GAO-12-361 (Washington, DC: Mar. 23, 2012).
---------------------------------------------------------------------------
    In developing this testimony, we relied on our previous reports,\4\ 
as well as information provided by the National security-related 
agencies on their actions in response to our previous recommendations. 
We also considered information contained in special publications issued 
by the National Institute of Standards and Technology (NIST) and a 
directive issued by DHS. A more detailed discussion of the objectives, 
scope, and methodology for this work is included in each of the reports 
that are cited throughout this statement.
---------------------------------------------------------------------------
    \4\ See GAO-12-361; State Department Telecommunications: 
Information on Vendors and Cyber-Threat Nations, GAO-17-688R 
(Washington, DC: July 27, 2017); and Telecommunications Networks: 
Addressing Potential Security Risks of Foreign-Manufactured Equipment, 
GAO-13-625T (Washington, DC: May 21, 2013).
---------------------------------------------------------------------------
    The work on which this statement is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform audits to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions. We believe that the evidence obtained provided a 
reasonable basis for our findings and conclusions based on our audit 
objectives.
                               background
    The design and development of information systems can be complex 
undertakings, consisting of a multitude of pieces of equipment and 
software products, and service providers. Each of the components of an 
information system may rely on one or more supply chains--that is, the 
set of organizations, people, activities, information, and resources 
that create and move a product or service from suppliers to an 
organization's customers.
    Obtaining a full understanding of the sources of a given 
information system can also be extremely complex. According to the 
Software Engineering Institute, the identity of each product or service 
provider may not be visible to others in the supply chain. Typically, 
an acquirer, such as a Federal agency, may only know about the 
participants to which it is directly connected in the supply chain. 
Further, the complexity of corporate structures, in which a parent 
company (or its subsidiaries) may own or control companies that conduct 
business under different names in multiple countries, presents 
additional challenges to fully understanding the sources of an 
information system. As a result, the acquirer may have little 
visibility into the supply chains of its suppliers.
    Federal procurement law and policies promote the acquisition of 
commercial products when they meet the Government's needs. Commercial 
providers of IT use a global supply chain to design, develop, 
manufacture, and distribute hardware and software products throughout 
the world. Consequently, the Federal Government relies heavily on IT 
equipment manufactured in foreign nations.
    Federal information and communications systems can include a 
multitude of IT equipment, products, and services, each of which may 
rely on one or more supply chains. These supply chains can be long, 
complex, and globally distributed and can consist of multiple tiers of 
outsourcing. As a result, agencies may have little visibility into, 
understanding of, or control over how the technology that they acquire 
is developed, integrated, and deployed, as well as the processes, 
procedures, and practices used to ensure the integrity, security, 
resilience, and quality of the products and services. Table 1 
highlights possible manufacturing locations of typical components of a 
computer or information systems network.

TABLE 1.--POSSIBLE MANUFACTURING LOCATIONS OF TYPICAL NETWORK COMPONENTS
------------------------------------------------------------------------
                                              Possible Manufacturing
               Component                            Locations
------------------------------------------------------------------------
Workstations...........................  United States, Israel, Spain,
                                          China, Malaysia, Singapore,
                                          United Kingdom.
Notebook computers.....................  United States, Israel, Spain,
                                          China, Malaysia, Singapore,
                                          United Kingdom.
Routing and switching..................  United States, India, Belgium,
                                          Canada, China, Germany,
                                          Israel, Japan, Netherlands,
                                          Poland, United Kingdom.
Fiber optic cabling....................  China, Malaysia, Vietnam,
                                          Japan, Thailand, Indonesia.
Servers................................  Brazil, Canada, United States,
                                          India, Japan, France, Germany,
                                          United Kingdom, Israel,
                                          Singapore.
Printers...............................  Japan, United States, Germany,
                                          France, Netherlands, Taiwan,
                                          China, Malaysia, Thailand,
                                          Vietnam, Philippines.
------------------------------------------------------------------------
Source: GAO analysis of public information/GAO-18-667T.

    Moreover, many of the manufacturing inputs required for these 
components--whether physical materials or knowledge--are acquired from 
various sources around the globe. Figure 1 depicts the potential 
countries of origin of common suppliers of various components in a 
commercially available laptop computer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Federal Laws and Guidelines Require the Establishment of Information 
        Security Programs and Provide for Managing Supply Chain Risk
    The Federal Information Security Modernization Act (FISMA) of 2014 
requires Federal agencies to develop, document, and implement an 
agency-wide information security program to provide information 
security for the information systems and information that support the 
operations and assets of the agency.\5\ The act also requires that 
agencies ensure that information security is addressed throughout the 
life cycle of each agency information system. FISMA assigns NIST the 
responsibility for providing standards and guidelines on information 
security to agencies. In addition, the act authorizes DHS to develop 
and issue binding operational directives to agencies, including 
directives that specify requirements for the mitigation of exigent 
risks to information systems.
---------------------------------------------------------------------------
    \5\ FISMA 2014 (Pub. L. No. 113-283, Dec. 18, 2014) largely 
superseded the Federal Information Security Management Act of 2002 
(FISMA 2002), enacted as Title III, E-Government Act of 2002, Pub. L. 
No. 107-347, 116 Stat. 2899, 2946 (Dec. 17, 2002). As used in this 
statement, FISMA refers both to FISMA 2014 and to those provisions of 
FISMA 2002 that were either incorporated into FISMA 2014 or were 
unchanged and continue in full force and effect.
---------------------------------------------------------------------------
    NIST has issued several special publications (SP) that provide 
guidelines to Federal agencies on controls and activities relevant to 
managing supply chain risk. For example,
  <bullet> NIST SP 800-39 provides an approach to organization-wide 
        management of information security risk, which states that 
        organizations should monitor risk on an on-going basis as part 
        of a comprehensive risk management program.\6\
---------------------------------------------------------------------------
    \6\ NIST, Managing Information Security Risk: Organization, 
Mission, and Information System View, SP 800-39 (Gaithersburg, MD: 
March 2011).
---------------------------------------------------------------------------
  <bullet> NIST SP 800-53 (Revision 4) provides a catalogue of controls 
        from which agencies are to select controls for their 
        information systems. It also specifies several control 
        activities that organizations could use to provide additional 
        supply chain protections, such as conducting due diligence 
        reviews of suppliers and developing acquisition policy, and 
        implementing procedures that help protect against supply chain 
        threats throughout the system development life cycle.\7\
---------------------------------------------------------------------------
    \7\ NIST, Security and Privacy Controls for Federal Information 
Systems and Organizations, SP 800-53, Revision 4 (Gaithersburg, MD: 
April 2013).
---------------------------------------------------------------------------
  <bullet> NIST SP 800-161 provides guidance to Federal agencies on 
        identifying, assessing, selecting, and implementing risk 
        management processes and mitigating controls throughout their 
        organizations to help manage information and communications 
        technology supply chain risks.\8\
---------------------------------------------------------------------------
    \8\ NIST, Supply Chain Risk Management Practices for Federal 
Information Systems and Organizations, SP-800-161 (Gaithersburg, MD: 
April 2015).
---------------------------------------------------------------------------
    In addition, as of June 2018, DHS has issued one binding 
operational directive related to an IT supply chain-related threat. 
Specifically, in September 2017, DHS issued a directive to all Federal 
Executive branch departments and agencies to remove and discontinue 
present and future use of Kaspersky-branded products on all Federal 
information systems.\9\ In consultation with interagency partners, DHS 
determined that the risks presented by these products justified their 
removal.
---------------------------------------------------------------------------
    \9\ DHS, Removal of Kaspersky-Branded Products, BOD-17-01 
(Washington, DC: Sept. 13, 2017).
---------------------------------------------------------------------------
    Beyond these guidelines and requirements, the Ike Skelton National 
Defense Authorization Act for Fiscal Year 2011 also included provisions 
related to supply chain security. Specifically, Section 806 authorizes 
the Secretaries of Defense, the Army, the Navy, and the Air Force to 
exclude a contractor from specific types of procurements on the basis 
of a determination of significant supply chain risk to a covered 
system.\10\ Section 806 also establishes requirements for limiting 
disclosure of the basis of such procurement action.
---------------------------------------------------------------------------
    \10\ The act defines ``supply chain risk'' as ``risk that an 
adversary may sabotage, maliciously introduce unwanted function, or 
otherwise subvert the design, integrity, manufacturing, production, 
distribution, installation, operation, or maintenance of a covered 
system so as to surveil, deny, disrupt, or otherwise degrade the 
function, use, or operation of such system.''
---------------------------------------------------------------------------
   it supply chains introduce numerous information security risks to 
                            federal agencies
    In several reports issued since 2012,\11\ we have pointed out that 
the reliance on complex, global IT supply chains introduces multiple 
risks to Federal information and telecommunications systems. This 
includes the risk of these systems being manipulated or damaged by 
leading foreign cyber-threat nations such as Russia, China, Iran, and 
North Korea.\12\ Threats and vulnerabilities created by these cyber-
threat nations, vendors, or suppliers closely linked to cyber-threat 
nations,\13\ and other malicious actors can be sophisticated and 
difficult to detect and, thus, pose a significant risk to organizations 
and Federal agencies.
---------------------------------------------------------------------------
    \11\ GAO-12-361, GAO-13-652T, and GAO-17-688R.
    \12\ The Office of the Director of National Intelligence has 
identified Russia, China, Iran, and North Korea as leading cyber-threat 
nations in its Worldwide Threat Assessment of the U.S. Intelligence 
Community (Washington, DC: Feb. 9, 2016 and Feb. 13, 2018).
    \13\ The Department of State Authorities Act, Fiscal Year 2017, 
defines ``closely linked'' as, with respect to a foreign supplier, 
contactor, or subcontractor and a cyber threat nation: (1) Incorporated 
or headquartered in the territory; (2) having ties to the military 
forces; (3) having ties to the intelligence services; or (4) the 
beneficiary of significant low-interest or no-interest loans, loan 
forgiveness, or other support of a leading cyber threat nation. The Act 
also included a provision for GAO to review the Department of State's 
(State) critical telecommunications equipment or services obtained from 
manufacturers or suppliers that are closely linked to the leading cyber 
threat nations. Based on GAO's open source review of generalizable 
samples of 52 telecommunications device manufacturers and software 
developers supporting the State's critical telecommunications 
capabilities and 100 of State's telecommunications contractors, GAO 
identified 16 companies--12 equipment manufacturers and software 
developers and 4 telecommunications contractors--with suppliers 
reported to be headquartered in cyber threat nations. All of these 
suppliers were reported to be headquartered in China or, in one case, 
Russia. The data did not establish whether State's telecommunications 
capabilities were supported by equipment or software originating from 
suppliers linked to companies in GAO's samples. GAO did not identify 
any reported military ties, intelligence ties, or low-interest loans 
involving cyber threat nations among any of the suppliers. See GAO-17-
688R.
---------------------------------------------------------------------------
    As we reported in March 2012,\14\ supply chain threats are present 
at various phases of a system's development life cycle. Key threats 
that could create an unacceptable risk to Federal agencies include the 
following.
---------------------------------------------------------------------------
    \14\ GAO-12-361.
---------------------------------------------------------------------------
  <bullet> Installation of hardware or software containing malicious 
        logic, which is hardware, firmware, or software that is 
        intentionally included or inserted in a system for a harmful 
        purpose. Malicious logic can cause significant damage by 
        allowing attackers to take control of entire systems and, 
        thereby, read, modify, or delete sensitive information; disrupt 
        operations; launch attacks against other organizations' 
        systems; or destroy systems.
  <bullet> Installation of counterfeit hardware or software, which is 
        hardware or software containing non-genuine component parts or 
        code. According to the Defense Department's Information 
        Assurance Technology Analysis Center, counterfeit IT threatens 
        the integrity, trustworthiness, and reliability of information 
        systems for several reasons, including the facts that: (1) 
        Counterfeits are usually less reliable and, therefore, may fail 
        more often and more quickly than genuine parts; and (2) 
        counterfeiting presents an opportunity for the counterfeiter to 
        insert malicious logic or back doors \15\ into replicas or 
        copies that would be far more difficult in more secure 
        manufacturing facilities.\16\
---------------------------------------------------------------------------
    \15\ A ``back door'' is a general term for a malicious program that 
can potentially give an intruder remote access to an infected computer.
    \16\ Information Assurance Technology Analysis Center, Security 
Risk Management for the Off-the-Shelf (OTS) Information and 
Communications Technology (ICT) Supply Chain, An Information Assurance 
Technology Analysis Center State of the Art Report, DO 380 (Herndon, 
VA: August 2010).
---------------------------------------------------------------------------
  <bullet> Failure or disruption in the production or distribution of 
        critical products. Both man-made (e.g., disruptions caused by 
        labor, trade, or political disputes) and natural (e.g., 
        earthquakes, fires, floods, or hurricanes) causes could 
        decrease the availability of material needed to develop systems 
        or disrupt the supply of IT products critical to the operations 
        of Federal agencies.
  <bullet> Reliance on a malicious or unqualified service provider for 
        the performance of technical services. By virtue of their 
        position, contractors and other service providers may have 
        access to Federal data and systems. Service providers could 
        attempt to use their access to obtain sensitive information, 
        commit fraud, disrupt operations, or launch attacks against 
        other computer systems and networks.
  <bullet> Installation of hardware or software that contains 
        unintentional vulnerabilities, such as defects in code that can 
        be exploited. Cyber attackers may focus their efforts on, among 
        other things, finding and exploiting existing defects in 
        software code. Such defects are usually the result of 
        unintentional coding errors or misconfigurations, and can 
        facilitate attempts by attackers to gain unauthorized access to 
        an agency's information systems and data, or disrupt service.
    We noted in the March 2012 report that threat actors \17\ can 
introduce these threats into Federal information systems by exploiting 
vulnerabilities that could exist at multiple points in the global 
supply chain. In addition, supply chain vulnerabilities can include 
weaknesses in agency acquisition or security procedures, controls, or 
implementation related to an information system. Examples of the types 
of vulnerabilities that could be exploited include:
---------------------------------------------------------------------------
    \17\ Supply chain-related threat actors include foreign 
intelligence services and militaries, corporate spies, corrupt 
government officials, cyber vandals, disgruntled employees, radical 
activists, purveyors of counterfeit goods, or criminals.
---------------------------------------------------------------------------
  <bullet> acquisitions of IT products or parts from sources other than 
        the original manufacturer or authorized reseller, such as 
        independent distributors, brokers, or on the gray market;
  <bullet> lack of adequate testing for software updates and patches; 
        and
  <bullet> incomplete information on IT suppliers.
    If a threat actor exploits an existing vulnerability, it could lead 
to the loss of the confidentiality, integrity, or availability of the 
system and associated information. This, in turn, can adversely affect 
an agency's ability to carry out its mission.
four national security-related agencies have acted to better address it 
            supply chain risks for their information systems
    In March 2012, we reported that the four National security-related 
agencies (i.e., Defense, Justice, Energy, and DHS) had acknowledged the 
risks presented by supply chain vulnerabilities.\18\ However, the 
agencies varied in the extent to which they had addressed these risks 
by: (1) Defining supply chain protection measures for Department 
information systems, (2) developing implementing procedures for these 
measures, and (3) establishing capabilities for monitoring compliance 
with, and the effectiveness of, such measures.
---------------------------------------------------------------------------
    \18\ GAO-12-361.
---------------------------------------------------------------------------
    Of the four agencies, the Department of Defense had made the most 
progress addressing the risks. Specifically, the Department's supply 
chain risk management efforts began in 2003 and included:
  <bullet> a policy requiring supply chain risk to be addressed early 
        and across a system's entire life cycle and calling for an 
        incremental implementation of supply chain risk management 
        through a series of pilot projects;
  <bullet> a requirement that every acquisition program submit and 
        update a ``program protection plan'' that was to, among other 
        things, help manage risks from supply chain exploits or design 
        vulnerabilities;
  <bullet> procedures for implementing supply chain protection 
        measures, such as an implementation guide describing 32 
        specific measures for enhancing supply chain protection and 
        procedures for program protection plans identifying ways in 
        which programs should manage supply chain risk; and
  <bullet> a monitoring mechanism to determine the status and 
        effectiveness of supply chain protection pilot projects, as 
        well as monitoring compliance with and effectiveness of program 
        protection policies and procedures for several acquisition 
        programs.
    Conversely, our report noted that the other three agencies had made 
limited progress in addressing supply chain risks for their information 
systems. For example:
  <bullet> The Department of Justice had defined specific security 
        measures for protecting against supply chain threats through 
        the use of provisions in vendor contracts and agreements. 
        Officials identified: (1) A citizenship and residency 
        requirement and (2) a National security risk questionnaire as 
        two provisions that addressed supply chain risk. However, 
        Justice had not developed procedures for ensuring the effective 
        implementation of these protection measures or a mechanism for 
        verifying compliance with, and the effectiveness of these 
        measures. We stressed that, without such procedures, Justice 
        would have limited assurance that its Departmental information 
        systems were being adequately protected against supply chain 
        threats.
  <bullet> In May 2011, the Department of Energy revised its 
        information security program, which required Energy components 
        to implement provisions based on NIST and Committee on National 
        Security Systems guidance. However, the Department was unable 
        to provide details on implementation progress, milestones for 
        completion, or how supply chain protection measures would be 
        defined. Because it had not defined these measures or 
        associated implementing procedures, we reported that the 
        Department was not in a position to monitor compliance or 
        effectiveness.
  <bullet> Although its information security guidance mentioned the 
        NIST control related to supply chain protection, DHS had not 
        defined the supply chain protection control activities that 
        system owners should employ. The Department's information 
        security policy manager stated that DHS was in the process of 
        developing policy that would address supply chain protection, 
        but did not provide details on when it would be completed. In 
        the absence of such a policy, DHS was not in a position to 
        develop implementation procedures or to monitor compliance or 
        effectiveness.
    To assist Justice, Energy, and DHS in better addressing IT supply 
chain-related security risks for their Departmental information 
systems, we made 8 recommendations to these 3 agencies in our 2012 
report. Specifically, we recommended that Energy and DHS:
  <bullet> develop and document Departmental policy that defines which 
        security measures should be employed to protect against supply 
        chain threats.
    We also recommended that Justice, Energy, and DHS:
  <bullet> develop, document, and disseminate procedures to implement 
        the supply chain protection security measures defined in 
        Departmental policy, and
  <bullet> develop and implement a monitoring capability to verify 
        compliance with, and assess the effectiveness of, supply chain 
        protection measures.
    The 3 agencies generally agreed with our recommendations and, 
subsequently, implemented 7 of the 8 recommendations. Specifically, we 
verified that Justice and Energy had implemented each of the 
recommendations we made to them by 2016. We also confirmed that DHS had 
implemented 2 of the 3 recommendations we made to that agency by 2015.
    However, as of fiscal year 2016,\19\ DHS had not fully implemented 
our recommendation to develop and implement a monitoring capability to 
verify compliance with, and assess the effectiveness of, supply chain 
protections. Although the Department had developed a policy and 
approach for monitoring supply chain risk management activities, it 
could not provide evidence that its components had actually implemented 
the policy. Thus, we were not able to close the recommendation as 
implemented. Nevertheless, the implementation of the 7 recommendations 
and partial implementation of the eighth recommendation better 
positioned the 3 agencies to monitor and mitigate their IT supply chain 
risks.
---------------------------------------------------------------------------
    \19\ GAO reviews agency actions to implement its recommendations 
and may decide to close a recommendation as not implemented if an 
agency has not implemented the recommendation within 4 fiscal years of 
GAO making the recommendation. Fiscal year 2016 was the fourth fiscal 
year after GAO made the recommendations to DHS in its March 2012 
report.
---------------------------------------------------------------------------
    In addition, we reported in March 2012 that the 4 National 
security-related agencies had participated in interagency efforts to 
address supply chain security, including participation in the 
Comprehensive National Cybersecurity Initiative,\20\ development of 
technical and policy tools, and collaboration with the intelligence 
community. In support of the cybersecurity initiative, Defense and DHS 
jointly led an interagency initiative on supply chain risk management 
to address issues of globalization affecting the Federal Government's 
IT. Also, DHS had developed a comprehensive portfolio of technical and 
policy-based product offerings for Federal civilian departments and 
agencies, including technical assessment capabilities, acquisition 
support, and incident response capabilities. The efforts of the 4 
agencies could benefit all Federal agencies in addressing their IT 
supply chain risks.
---------------------------------------------------------------------------
    \20\ Begun by the Bush administration in 2008, the Comprehensive 
National Cybersecurity Initiative is a series of initiatives aimed at 
improving cybersecurity within the Federal Government. This initiative, 
which is composed of 12 projects with the objective of safeguarding 
Federal Executive branch information systems, includes a project 
focused on addressing global supply chain risk management.
---------------------------------------------------------------------------
    In summary, the global IT supply chain introduces a myriad of 
security risks to Federal information systems that, if realized, could 
jeopardize the confidentiality, integrity, and availability of Federal 
information systems. Thus, the potential exists for serious adverse 
impact on an agency's operations, assets, and employees. These factors 
highlight the importance and urgency of Federal agencies appropriately 
assessing, managing, and monitoring IT supply chain risk as part of 
their agency-wide information security programs.
    Chairmen King and Perry, Ranking Members Rice and Correa, and 
Members of the subcommittees, this completes my prepared statement. I 
would be pleased to answer your questions.

    Mr. King. You still had 17 seconds to go. Good job. Thank 
you very much, Mr. Wilshusen.
    I appreciate all of you being here today. I now recognize 
myself for 5 minutes. A number of us on the panel believe that 
DHS should have powers similar to DOD, similar to section 806.
    Now, I guess I would ask the three representatives from DHS 
how that would strengthen you if similar legislation was 
adopted for DHS? But also, looking back on it, it appears that 
DOD was given this authority in 2011, did not issue regulations 
until 2015, and I don't even know if they have begun to 
implement them yet. So if this authority is given to you, how 
quickly would you be able to implement it and how would it 
improve your capabilities? Ms. Correa.
    Ms. Correa. So, sir, I have looked at the authority, and I 
have also looked at the proposal that has been put before--the 
latest legislative proposal. We would act very quickly and 
swiftly to implement.
    We would look at our business process to see how we can 
immediately train our staff and ensure that they have a full 
understanding of what this authority grants us to do, and we 
would issue immediate guidelines and instructions, including to 
our employees but also to share with industry, on how we would 
use that authority. But the very specifics, the time line, I 
would have to go back and look at how quickly we could actually 
implement.
    Mr. Zangardi. Sir, thank you. I concur with Soraya. The 
need for this type of capability or authority is important from 
a CIO's perspective. My responsibility that I have to take 
under consideration and work very hard every day is the 
security of the DHS network, just not for the headquarters but 
for the components.
    Having the ability to react swiftly to make the right 
decisions with removal of network systems or IT systems that 
are threatening is very important for us in carrying out our 
mission. We will work very closely with the intelligence 
community and NPPD on tippers, so we know what is going on. My 
team will do the technical assessment and talk very closely 
with the chief procurement officer, to make sure the lines of 
communication and what we are doing is very clear and 
understandable.
    Mr. King. Ms. Manfra.
    Ms. Manfra. The only thing I would add is to just note that 
the administration proposal would be for this authority to be 
granted Government-wide. So in addition to DHS having this 
ability, we want all of the Executive branch to be able to have 
this authority and this capability.
    Mr. King. This is I guess the open question to you. Do you 
have sufficient personnel on board now to carry out your 
mission?
    Ms. Correa. I am sorry. The question was? I want to make 
sure I understood the question.
    Mr. King. Do you have sufficient personnel on board now to 
carry out this mission?
    Ms. Correa. To carry out this mission? From a procurement 
perspective, the answer is yes, because we would be relying on 
our contracting officers, our policy and legislative team, who 
actually implement any accompanying guidelines. We put out 
guides. We do this on a very regular basis. So the answer is 
yes, we have the staff that can do this right now.
    Mr. King. Doctor.
    Mr. Zangardi. Sir, from a CIO perspective and with regards 
to my mission for protecting the DHS network, I feel that I 
have sufficient folks on board in my shop. I also feel that the 
communication between the technical folks and my CISO shop and 
the component chief information security officers and CIOs is 
more than adequate to carry this out.
    Mr. King. Ms. Manfra.
    Ms. Manfra. Our role would be different in that we wouldn't 
necessarily be in charge of implementing this authority for the 
Department. We are looking across the Federal Government and 
building an initiative to ensure that supply chain risk 
assessments are being done, that we are following up and 
potentially providing continuous monitoring.
    We have just started building that program, as noted. We 
currently do only have 2 people solely identified for that, but 
we are building that program and were recently appropriated 
some additional program dollars. So that program will be built 
over the next 2 years to get to full capacity.
    Mr. King. I am down to 40 seconds. Mr. Wilshusen, based on 
your studies of the departments, including DHS, over the years, 
if we did give 806 authority to DHS, how long do you think it 
would take them to implement it?
    Mr. Wilshusen. That I wouldn't know exactly, but I would 
say that one of the key things with the 806 authority given to 
DHS is making sure that this committee and GAO and/or the 
inspectors general have an opportunity to review the process 
and the procedures that the Department implements in order to 
effect that particular capability and authority that it has. It 
is just making sure that one is able to review what DHS does in 
implementing it and making sure it is done in accordance with 
the law.
    Mr. King. Thank you. Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Ms. Correa, I would like to start with you. This hearing is 
about some of the threats we face from adversarial foreign 
governments. I think in order to counter these threats, we must 
first fully acknowledge them and their intentions. So, with 
that in mind, do you agree with the intelligence community's 
January 2017 assessment and the Senate Intelligence Committee's 
findings that Russia interfered in the 2016 election to benefit 
the Trump campaign?
    Ms. Correa. So, ma'am, I am not intimately familiar with 
that information. What I can tell you is that I agree that we 
have to have the authorities in place----
    Miss Rice. OK, I have to stop you there.
    Ms. Correa. OK.
    Miss Rice. In your position, you are saying you can't 
answer this question?
    Ms. Correa. Not directly, no, ma'am.
    Miss Rice. How about indirectly?
    Ms. Correa. That is what I was trying to do. That I believe 
we have to have the mechanisms in place to address these 
vulnerabilities and ensure that the threat assessments, the 
risks, the vulnerabilities are properly addressed through the 
procurement process.
    Miss Rice. You are the chief procurement officer for the 
Department of Homeland Security, and you do not have an opinion 
about whether the Senate Intelligence Committee's findings and 
the entire intelligence community's findings that Russia 
interfered with the 2016 election to support President Trump, 
you have no opinion about that?
    Ms. Correa. Ma'am, unfortunately, no, not with respect to 
this.
    Miss Rice. That is frightening, frightening to me.
    How about you, Doctor?
    Mr. Zangardi. Yes, ma'am. Thank you for the opportunity to 
respond.
    Miss Rice. Yes or no, do you agree with the findings?
    Mr. Zangardi. Ma'am, I am here to testify on this 
authority.
    Miss Rice. No, you are here to answer questions. You are 
talking about actions that all of you are taking on behalf of 
the Department of Homeland Security regarding interference, 
whether it is procurement process or whatever it is. If we 
can't get people here, all four of you, to acknowledge that 
there was interference in the 2016 election, none of you should 
be in the positions that you are in to protect us in 2018 or 
2020.
    So yes or no, do you have an opinion about whether Russia 
interfered in the 2016 election, yes or no?
    Mr. Zangardi. Ma'am, my responsibility is to protect the 
DHS network----
    Miss Rice. Your responsibility is to answer the question. 
Yes or no? Say no.
    Mr. Zangardi. Ma'am, I do not have an opinion.
    Miss Rice. You have no opinion. Again, frightening.
    OK, let's move on to Ms. Manfra. Yes or no, do you agree 
with the opinion of the entire intelligence----
    Ms. Manfra. I agree with the intelligence community 
assessment, ma'am, and I have said so publicly previously.
    Miss Rice. Thank you.
    Mr. Wilshusen. I would also have to agree with the 
Intelligence Committee, but, again, I haven't examined it.
    Miss Rice. I appreciate your willingness to answer a 
question that everyone on the panel should be able to answer.
    Despite warnings from the Federal Communications 
Commission, the Department of Commerce, the Department of 
Defense, and other intelligence agencies, President Trump 
publicly expressed support for the Chinese telecommunications 
company ZTE.
    Ms. Correa, I will start with you. Have you discussed your 
concerns with the Chinese telecommunications companies with 
President Trump?
    Ms. Correa. No, ma'am, I have not had any discussions with 
the President.
    Miss Rice. Have you discussed it with the Secretary of the 
Department of Homeland Security?
    Ms. Correa. No, ma'am. No, I have not.
    Miss Rice. You are the chief procurement, head of 
procurement?
    Ms. Correa. That is correct.
    Miss Rice. Again, a frightening, frightening answer. Do you 
think you should speak to her about that?
    Ms. Correa. Ma'am, I work in conjunction with my colleagues 
and look at what the risks are----
    Miss Rice. OK. So again, you are not going to answer the 
question.
    Doctor, how about you, have you had any discussions about--
--
    Mr. Zangardi. No.
    Miss Rice. Do you have any concerns about the President's 
approach to ZTE, whatever his motivations are? We don't even 
have to go into them. Do you, in your position, have concerns 
about the President's stated position about ZTE, yes or no?
    Mr. Zangardi. Ma'am, I have made sure that the network has 
no ZTE equipment on it.
    Miss Rice. OK. So I am going to answer for you. That would 
be yes, you do have concerns?
    Mr. Zangardi. Ma'am, my responsibility is for the network 
for DHS. I have ensured that the appropriate steps have been 
taken to preclude the use of equipment----
    Miss Rice. So is there a reason why you can't say, answer a 
question in a way that might come across as being critical of 
the President? Is there a reason? Because I have never heard an 
inability from Ms. Correa and you to answer a simple yes-or-no 
question. So I am just wondering why you can't or won't.
    Mr. Zangardi. Ma'am, my position is to work and ensure that 
the network is safe every day, and that is what I do.
    Miss Rice. OK. What is frightening to me is that people 
like you are in the positions that you are in, who will not 
make statements of fact that everyone in the intel community 
has made.
    Mr. Chairman, I thank you for your indulgence. I want to 
thank at least the 2 of you for being willing to answer what I 
think is a pretty simple question.
    Thank you, Mr. Chairman.
    Mr. King. Thank you, Miss Rice.
    Without getting into a debate--we can have it--first of 
all, it was not only composed of the intelligence community. It 
was the FBI and the CIA and DNI agreed in part. The other 14 
did not take a position. There are legitimate questions about 
the extent of the involvement. I have no doubt there was 
meddling. We can debate it in another forum.
    But having been through 65, 70 witnesses on the 
Intelligence Committee on this, it is not as clear as you may 
think as far as who they were favoring. There is no doubt there 
was meddling. But, again, it was only Brennan and Comey who 
agreed in full with that recommendation.
    Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    I thank the witnesses for their testimony in answering some 
questions for us here. We are trying to get to the process, I 
think, and understand the process that you all go through and 
then find out how we, from a legislative and policy standpoint, 
can support your efforts. I think all of us, regardless of our 
political affiliation, don't want us to be on defense, don't 
want us to be reactive, want us to be proactive. I think that 
is what we are trying to get to. So I am trying to understand, 
and so my questions will be in that vein.
    I am wondering what the DHS does to recognize and address 
that might already exist from products that are currently 
implemented or being used by the Department. How does that 
process work? Is there a continual reevaluation? I am thinking 
in the context of, you know, I have got two of these things and 
I have got a couple iPads and then desktop computers. I don't 
know what the schedule is, but on a pretty regular basis, you 
know, you have got to put in your code and update the software 
and all that stuff.
    I will be honest with you, I have no idea what is happening 
in there. Something's happening, right? But I am hoping that 
you folks do and deal with that, and I am trying to understand 
how that works. If any one of you can answer that question, you 
know.
    Mr. Zangardi. So, sir, you know, the current IT 
environment, as mentioned by another witness, is global. It is 
complicated. It is characterized by mergers and acquisitions in 
an ever-changing territory. So we have to work very hard to 
deal with that. So intelligence tippers is really a key way in 
which we start the process. But more importantly, backing up 
within the whole acquisition process, we have to be involved at 
the very beginning as the program is being looked at to 
determine what systems, hardware components, software are going 
in there. Then we have developed a set of questions that have 
to be answered by every program.
    We have also in our 4300A handbook developed a requirement 
for the components and the programs to develop policies related 
to supply chain management. So we have put those in place. My 
chief technical officer also vets all software against the 
State Department Committee on Foreign Investment in the United 
States. So these are embedded in the process as we are going 
toward to build something out.
    So when we are notified about a risk, we look at it very 
closely from a technical point of view and determine if it is 
something that we should mitigate or remove. Removal takes 
time. It isn't an overnight process. So mitigation might 
involve something simple, like setting configurations or 
settings on a firewall.
    My ESOC, or my Enterprise Security Operation Center, 
monitors this on a daily basis, looking for proxy signals. They 
monitor it daily and they will tip off if they find anything. 
We also do scans of our network and review the logs to ensure 
that nothing is, you know, askew. We work very closely with the 
CISOs and the component CIOs to ensure that the communication 
and standards are set.
    I think part of your question deals with making sure that 
patches and other things are done to make sure the network is 
modern and upgraded to the current standards.
    I view cyber hygiene as part and parcel of what I do. What 
I mean by cyber hygiene is ensuring that we are moving to 
modern operating systems, that our patching is done up to date 
and as soon as possible, and we are doing things like two-
factor authentication and PKI.
    Mr. Perry. A lot of this is pretty technical for all of us, 
and we just--I hate to say it, but we are counting on you folks 
to have the technical expertise that is necessary.
    Just out of curiosity, is DHS using software products with 
Russian-based security codes, such as Kaspersky, NGINX, Nordic 
ANT, Oxygen. I know I see a U.S. Secret Service request for 
DHS, 20 licenses from Oxygen, which is a Russian-based company. 
I am wondering, as a matter of protocol, does DHS look into--I 
imagine but I just want to be sure--relationships with the 
Russian government and--well, I will just leave it at that. If 
you can answer those questions.
    Mr. Zangardi. So, sir, we do, and we take that into account 
as part of our technical assessment.
    Mr. Perry. Wait. You use those?
    Mr. Zangardi. No, sir. You asked if I take that into 
account.
    Mr. Perry. OK. Yes, I just want to be clear. Right.
    Mr. Zangardi. Yes, sir. So we take it into account. To make 
sure that it is part of our technical assessment, we consider 
the leadership of companies, where the company is based, those 
sort of qualitative factors, if you will.
    Mr. Perry. Do you know if you use any of the companies that 
I listed?
    Mr. Zangardi. So, sir, I would have to take some of that as 
a QFR. For companies like Huawei----
    Mr. Perry. If you could, please, I would like to----
    Mr. Zangardi. We do not have any Huawei or ZTE.
    Mr. Perry. I am happy to know that. Let me ask you this: Do 
you have a--does DHS have a requirement for the companies that 
you procure from that determines what security standard they 
have? Somebody is writing the code. Somebody is building the 
piece of equipment.
    Does DHS have a requirement? Is there a minimum standard, a 
minimum security standard, background checks, et cetera, for 
the vendors or the producers? Is that something that is a part 
of what you do, Ms. Correa?
    Ms. Correa. Yes. Yes, sir. We actually vet the vendors, and 
we do have security standards that are specified in the actual 
solicitation as well as we include cyber hygiene clauses that 
are in the contracts and solicitations, as determined by the 
program offices and the CIO for inclusion that identify the 
different documentation and the standards that they have to 
meet, the training that they have to take, and the documents 
that they have to submit for us to validate that they are 
meeting the security standards.
    Mr. Perry. So one final question, with the Chair's 
indulgence. I wonder why it took so long to identify Kaspersky 
as a risk. It seemed to me--look, I come from Pennsylvania 
State government. We used Kaspersky throughout the State 
government as our security vendor, and through the complaints 
we kept using it until finally the Federal Government said, 
hey, there is a problem here. What took so long?
    Ms. Manfra. I can take that one, sir. I can't comment in 
detail about maybe why it took so long. I can tell you for when 
I was in my position, we looked in--and working with our 
intelligence analysis, looked into all the available 
information, both Classified and unclassified. It just came to 
a point that this was not a risk that we were willing to accept 
on our networks, and that is when we began the process of 
identifying tools available to remove them from our networks, 
and that led to the binding operational directive.
    Mr. Perry. So from a layman's standpoint, and I will close 
with this, it seems to me that people like me would think as 
soon as you see anything questionable, as soon as you see 
anything questionable from a country like Russia, China, Iran, 
or whatever that we are buying things like this from, that is a 
problem and we should terminate it. But I will close with that.
    Thank you, Mr. Chair, and I yield.
    Mr. King. I would just join the gentleman in saying I know 
for a number of years we were hearing about Kaspersky, and I 
could never understand why we retained them, but in any event.
    Mr. Correa, you are recognized.
    Mr. Correa of California. Thank you very much. I only have 
5 minutes here, so let me try to be succinct and I would 
appreciate succinctness of your answers to my questions.
    But, you know, recently the administration seems to have 
changed its position on Huawei and ZTE. Does that change your 
perspective, your view on the security threat that these 
products pose on the supply chain? Meaning are we OK to buy 
them now? Are you going to buy them, or does this not change 
your perspective on the threat of ZTE and Huawei to our 
National security?
    Ms. Manfra. Sir, I am not exactly sure what you mean by 
changing positions. If you are referring to the Commerce act on 
ZTE----
    Mr. Correa of California. Yes.
    Ms. Manfra. So that is specific to ZTE, not Huawei. I would 
say, similar to what we discussed with Kaspersky, what we are 
looking at is less about the company and more about the laws 
that that company is compelled to follow. Both Chinese and 
Russian laws compel access that we are concerned about. So what 
we are doing is a risk assessment on companies that are subject 
to those laws and looking at the tools that we have available 
to us to address that risk.
    Mr. Correa of California. So when you say we are looking at 
the risk assessment, what would change of that risk assessment? 
It is my understanding that certain countries, Russia and China 
being two, are generally their style of economy, so to speak. 
Those companies are essentially controlled or are accountable 
to their central government. So that model of operating would 
never change, at least not in the short term.
    So, I am trying to figure out, is I guess our 
classification of ZTE would change, what would change in your 
assessment of that company in how we would do business with 
them in the United States?
    Ms. Manfra. I want to separate the Commerce action on ZTE, 
which was a specific action for something that they violated, 
from our work in assessing risk. We can walk through some more 
details in the closed session. But just at a high level, we are 
looking at risk both now and in the future.
    Mr. Correa of California. Let me pull back, given we will 
go through that in closed session. But a bigger general 
question is, mitigation versus removal. Chain of command. You 
all operate under a chain of command, I presume. There are 
certain issues you need to bring forth to the committee, 
individuals that can respond to give you authority and so on 
and so forth, respond to your concerns.
    Do you have the ability to jump above the chain of command 
should you feel that your issues are not being addressed to 
bring your concerns forth?
    Ms. Manfra. I haven't experienced that. I have the full 
support of the Secretary.
    Mr. Correa of California. The same question to all of you, 
yes/no also?
    Mr. Zangardi. Yes, sir, I feel that I have the full support 
of the Secretary, and if there is an issue I can go up the 
chain of command. In fact, I have a dual reporting chain to the 
Secretary and to the under secretary for management.
    Mr. Correa of California. Ms. Correa.
    Ms. Correa. Similar to Dr. Zangardi. We are in the same 
reporting chain. So I report to the under secretary for 
management, who reports to the Secretary, and we do have the 
ability to raise concerns on any procurement-related matters.
    Mr. Correa of California. Would you say that your concerns 
are responded to affirmatively, meaning they are addressed?
    Ms. Correa. Yes. I can say yes, that my concerns are 
addressed.
    Mr. Zangardi. Yes, sir.
    Ms. Manfra. Yes, sir.
    Mr. Wilshusen. I am with GAO, and I certainly have the--can 
go up to the Comptroller General if I have a concern about any 
issue, but I haven't had that yet.
    Mr. Correa of California. I only have less than a minute 
and I wish I could delve into this a little bit more. But I 
guess my concern in the back of my head here I am thinking 
mitigation versus removing. You know what countries pose a 
threat. You know geopolitically the challenges out there. They 
are not new. They continue to be what they are.
    So, to me, if you have a bad actor that has acted poorly or 
badly in the past, mitigation versus removing, I am not sure 
what the difference would be or why we would go back to dealing 
with certain firms, knowing the threats that they present to 
our country.
    I have only 15 seconds. Let me make a closing statement and 
then you can answer, which is, you know, a lot of the stuff 
that has been going on, my thought in the back of my mind, at 
what point do these intrusions by these foreign governments 
represent a declaration of war on our country or not? Because a 
lot of the stuff they are doing is, you know, essentially 
posing a threat to us either today or in the future.
    If you have any comments, Mr. Chair, I am going to stop my 
comments, but I would like to see if anybody can address my 
comments.
    Mr. Zangardi. Sir, I would like to address the mitigation 
versus removal. So I am going to specifically talk to 
mitigation. That is preferred. Now, when we say mitigation, we 
are not talking about continued procurement of the particular 
hardware or software. What we are talking about is looking at 
it and going, oh, is the threat major or minor? Are there 
simple changes that I can make to some protocols or firewall 
settings that preclude it from doing whatever it was going to 
do? Then eventually remove it. Remember, everything has to be 
balanced in a cost-benefit sort-of equation. So if you could 
preclude it from being a threat with a simple mitigation, that 
is the preferred course of action.
    Mr. King. The gentleman's time has expired. Anybody else 
have anything on this? No, OK.
    Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    I am a little bit older than Chairman Perry, so I really 
don't understand this. I am not as old as Chairman King, but I 
am older than Chairman Perry. I am sure every one of these 
incredibly intelligent young folks behind you know a whole lot 
more about this than all of us combined. I was told once that 
there is more capability in this little machine than we had 
when we put a man on the moon in 1969. It is just amazing to 
me.
    So, knowing that these items, whether it be a phone, 
whether it be a 9-1-1 system, the component parts are made 
elsewhere, sometimes they are even put together elsewhere, do 
we have in place something that will secure our security before 
we find a vulnerability, or do we wait for something to happen 
before we realize there is a problem with the 9-1-1 system in 
New York City or an iPhone that is being used by a Member of 
Congress?
    Mr. Zangardi. So, sir, it is impossible to build a perfect 
defense. So we take prudent precautions to develop a security 
infrastructure that protects us against known and anticipated 
threats. We put that in place by looking at intelligence. We 
put that in place by understanding the technology.
    I will take it a step further. Every time we sit down with 
a company--and we do meet with a lot of companies--we ask them 
about their supply chain management process, because what you 
are talking about is it is a global marketplace and for that 
phone you have there, the parts come from many different 
countries. So we have to understand how those suppliers of the 
hardware and software we need are building out their product. 
So that is an area we focus on.
    As I mentioned earlier, we have procedures in our 4300 
instruction that the components have to put this in place. We 
address this during the acquisition process by putting in place 
questions that the program office has to answer. My chief 
technical officer and my chief information security officer are 
very involved in the vetting of hardware and software 
components that we procure.
    Ms. Manfra. Sir, if I could just add, we model what we do 
in cybersecurity similar to what is practiced in physical 
security. So you don't just think about defense on your 
perimeter. You think about putting a lot of different alerts 
and warning capability. You think about what happens if an 
individual gets past one perimeter, how do we deal with them 
elsewhere? How do we secure very high-valuable assets in a 
highly secure way, put resources toward that, extra protections 
around that? That is similar to what happens in cybersecurity; 
it just becomes very technical.
    So there are a lot of different ways that as we learn about 
what an adversary might be doing that is not necessarily 
related to patching a specific vulnerability where we can put 
what we call compensating controls in place.
    So if we know that an adversary leverages legitimate 
credentials, so they steal somebody's password and username, 
for example, say through spear phishing or something like 
that--we know that is a very common way--that they will then 
masquerade as a legitimate user on a network. So what we do is 
then we design our network so they can't just move laterally 
across the entire system and have access to everything.
    We also put in place identity monitoring as part of the CDM 
program, so that we can see if there a user behaving in a way 
that is not usual for that user to behave. That would alert a 
SOC, for example.
    So there are a lot of different practices and technologies 
that are in place that can monitor for this sort of behavior 
that we can take action on. But, again, like Dr. Zangardi said, 
it is not perfect. You can never have that 100 percent 
security. We just want to have a lot of layers, and we want to 
raise the cost for the adversary to get to those highest-value 
targets that we are working to protect.
    Mr. Donovan. I remember speaking with Jamie Dimon at 
JPMorgan, saying they are always concerned about the attack 
that is already there laying dormant, not the ones that are 
trying now, and thinking about if when this phone was made if a 
component part was compromised and it is laying dormant in all 
of our phones right now and is that able to be detected. But I 
guess maybe we can talk about that in a closed setting as well.
    Let me just ask, the Chairman was asking about 806 
authority. Are there any other authorities? I mean, we are 
lawmakers. We are supposed to listen to you, you are supposed 
to tell us what you need, and then we are supposed to help you 
get there.
    Are there any other authorities that would help you to 
secure, whether it be our equipment, our systems, that you 
would like to see Congress pass?
    Ms. Manfra. Congressman I can start with--no, I do not have 
a laundry list. Of course, the committee has worked very hard 
on the authorization for our Cybersecurity and Infrastructure 
Security Agency, which is a name change for our organization. 
We are hoping that we can get that passed into law.
    We have the administration's legislation proposal, which 
would have the 806-like authority in addition to codifying 
sort-of the process by which the Department and other agencies 
would be able to continuously share this information and act on 
it. So that full legislative proposal is really what we are 
looking for.
    Ms. Correa. I would like to add that I am encouraged by 
that kind of legislation, because what I think is extremely 
important is that we have consistency across the Government in 
how we apply our rules and how we are going to look at this 
process.
    I did want to touch on one other thing when Dr. Zangardi 
was speaking answering your previous question. We also include 
the assessment of what the technologies are that they are 
using, what the composition of the products are, and even the 
backgrounds of the companies as part of the proposal evaluation 
process. So there is a process there where we do look at 
companies.
    Mr. Donovan. Mr. Chairman, my time has expired, so I yield 
back the time that I don't have anymore.
    Mr. King. Very generous of you.
    I recognize the gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Yesterday, we had a hearing in full Committee on Homeland 
Security about what the Department is doing to try and help our 
local and State election apparatus to protect itself from a 
cyber attack. The attack was obviously the attack that our 
intelligence community has told us that President Putin, the 
Russian government, aspired to do and did, indeed, do against 
our country.
    So I am sitting here and I am saying, we are trying to 
reach out to our local and State election commissioners or 
secretaries of state, saying, we are here to help you prevent 
against this attack. We are the Department of Homeland Security 
and we have grants to do this.
    So how could you possibly expect them to take it seriously, 
Ms. Correa, if the chief procurement officer for the U.S. 
Department of Homeland Security, and Mr. Zangardi, as the chief 
information officer, sit here in a public committee the very 
next day, the very next day, and are saying, well, we can't 
tell you this happened. How can that be taken seriously? What 
do you say? Would you have that same comment to all our 
election commissioners and secretaries of state and say, you 
know, we can't tell you that that is happening? We are not 
going to publicly admit that. Ms. Correa? No, Ms. Correa.
    Ms. Correa. OK. Sir, what I am here to do is try to 
identify how we can safeguard the procurement process to ensure 
that there are no bad actors out there and that we address any 
risks of vulnerability.
    Mr. Keating. You are not prepared to say who did it?
    Mr. Zangardi. No, sir, I am not.
    Mr. Keating. You know, I sat here through the last Congress 
with many of my colleagues saying, boy, we can't go get these 
radical extremists unless we call them by name. But you are not 
calling them by name, the people that gave a hostile attack on 
our country's democracy. It is the same thing I heard all 
through the last Congress.
    It is just beyond me how we are being expected to be taken 
seriously, the Department is expected to be taken seriously 
when you won't even admit it publicly when we are trying to 
prevent, less than 4 months away, another attack.
    I just have a question on ZTE now. Mr. Zangardi said, well, 
we are not going to consider any ZTE products or apparatus. But 
I was listening to Ms. Manfra, who said, well, we really look 
at the technical side and we evaluate it from that, regardless 
of what the product would be, to see if it is safe.
    Don't you think that it should be automatically excluded 
from any procurement, not because of the technical ability of 
the product, but because they twice broke the law on sanctions 
against our country, again, with hostile countries like Iran, 
North Korea? Isn't that enough by itself to say, no matter how 
much it is technically reviewed, how much we feel comfortable 
with it, can you sit here and say, we are not going to under 
any circumstances use any ZTE products for Homeland Security 
procurement? Can you say that, Mr. Zangardi, without 
qualification?
    Mr. Zangardi. So my intent is to keep ZTE hardware off our 
network.
    Mr. Keating. No, not your personal intent, but yes or no, 
you are not going to do it. You are not going to use their 
products. They have twice broken the law.
    Mr. Zangardi. We do not use their product and it is based 
upon a technical assessment.
    Mr. Keating. Well, obviously, you are not using it now. But 
now that things have changed, can you say you will exclude it, 
period, going forward?
    Mr. Zangardi. So our decisions need to be based on risk and 
based on a technical----
    Mr. Keating. So it is not based on their actions. OK. I 
think we need to separate the question.
    Quickly, Mr. Wilshusen. The conclusion in your report dealt 
with the serious adverse impacts in risks here. Can you give us 
like what you think are among the most serious quickly? This is 
pretty serious stuff.
    Mr. Wilshusen. Sure. If an adversary is able to install 
malicious software or hardware into an information system, they 
may be able to extract or change, modify, even delete very 
sensitive information that may be residing on that system.
    That, of course, depends upon the system and what type of 
information it contains on that system. That could be 
personally identifiable information, proprietary information, 
or National security, public health----
    Mr. Keating. National security and public health.
    Mr. Wilshusen [continuing]. Related information.
    Mr. Keating. Thank you. Thank you. That is something for us 
all to think very carefully about in relation to my prior 
questions.
    I yield back.
    Mr. King. The gentleman yields back.
    Unless there are further questions, that concludes the 
public portion of the hearing. I ask unanimous consent that the 
subcommittees now recess for a brief period and reconvene the 
hearing in a closed session, pursuant to House rule 
XI(2)(g)(2), and we plan to reconvene in HVC-302 in 10 minutes.
    Without objection, the subcommittees will recess.
    [Whereupon, at 11:17 a.m., the subcommittees proceeded in 
closed session and subsequently adjourned at 12:28 p.m.]



                            A P P E N D I X

                              ----------                              

   Question From Chairman Scott Perry for the Department of Homeland 
                                Security
    Question. Is the Department of Homeland Security currently using or 
in the process of procuring any software products with Russian-based 
source code (i.e. Kaspersky, NGINX, Nordacind, Oxygen)? If so, which 
ones and for what purposes?
    Answer. Response was not received at the time of publication.
   Questions From Honorable James R. Langevin for the Department of 
                           Homeland Security
    Question 1a. On April 24, Assistant Secretary Jeanette Manfra 
testified before the Senate Homeland Security and Government Affairs 
Committee that the surge in risk and vulnerability assessments for 
elections infrastructure created ``a significant backlog in other 
critical infrastructure sectors and Federal agencies'' waiting for 
similar assessments. The President's 2019 budget did not request an 
increase in resources sufficient to overcome this backlog.
    Are more resources necessary to support the increased requests from 
State and local governments without delaying other assessments?
    Answer. Response was not received at the time of publication.
    Question 1b. What is the current RVA backlog? What is the prognosis 
for that backlog over the next calendar year?
    Answer. Response was not received at the time of publication.
    Question 2a. Based on the RVAs that DHS has carried out for State 
and local election officials, do most States and localities have the 
resources required to sufficiently mitigate their cybersecurity 
vulnerabilities (including equipment, staffing, training, and other 
components that factor into security)?
    Answer. Response was not received at the time of publication.
    Question 2b. If not, how big is the shortfall?
    Answer. Response was not received at the time of publication.
    Question 3. In the guidance NPPD issued to election officials on 
how to spend security funding, NPPD emphasizes the importance of 
deploying auditable voting systems.
    How important is it that States have auditable paper trails and 
conduct post-election audits to verify the digital tallies of election 
results?
    Answer. Response was not received at the time of publication.
    Question 4. Much of DHS's mission requires close coordination with 
other agencies, especially with respect to cybersecurity.
    How has the Department's ability to synchronize its cyber mission 
with other agencies been affected by the elimination of the 
Cybersecurity Coordinator position and the recent high rate of turnover 
at the National Security Council?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
